<html>
<title> - A PROGRESS REPORT ON INFORMATION SHARING FOR HOMELAND SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
     A PROGRESS REPORT ON INFORMATION SHARING FOR HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
                        INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2005

                               __________

                           Serial No. 109-33

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                    U.S. GOVERNMENT PRINTING OFFICE

27-686 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania, Vice      Edward J. Markey, Massachusetts
Chairman                             Norman D. Dicks, Washington
Christopher Shays, Connecticut       Jane Harman, California
Peter T. King, New York              Peter A. DeFazio, Oregon
John Linder, Georgia                 Nita M. Lowey, New York
Mark E. Souder, Indiana              Eleanor Holmes Norton, District of 
Tom Davis, Virginia                  Columbia
Daniel E. Lungren, California        Zoe Lofgren, California
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Rob Simmons, Connecticut             Bill Pascrell, Jr., New Jersey
Mike Rogers, Alabama                 Donna M. Christensen, U.S. Virgin 
Stevan Pearce, New Mexico            Islands
Katherine Harris, Florida            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Michael McCaul, Texas
Charlie Dent, Pennsylvania

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Peter T. King, New York              Loretta Sanchez, California
Mark E. Souder, Indiana              Jane Harman, California
Daniel E. Lungren, California        Nita M. Lowey, New York
Jim Gibbons, Nevada                  Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bob Etheridge, North Carolina
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Dave G. Reichert, Washington         Kendrick B. Meek, Florida
Charlie Dent, Pennsylvania           Bennie G. Thompson, Mississippi 
Christopher Cox, California (Ex      (Ex Officio)
Officio)

                                  (II)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Committee on Homeland 
  Security.......................................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     6
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    34
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    32
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York..........................................    30
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    35
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    68
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California...................................    42
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    39
The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington........................................    38

                               WITNESSES
                                Panel I

Mr. John Cohen, Senior Homeland Security Policy Advisor, 
  Executive Office of Public Safety, Commonwealth of 
  Massachusetts:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Dr. Lee Colwell, Executive Director, Pegas Research Foundation:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17
Mr. Gary Edwards, Chief Executive Officer, National Native 
  American, Law Enforcement Association:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14

                                Panel II

Brigadier General Matthew Broderick, Director, Homeland Security 
  Operations Center, Department of Homeland Security:
  Oral Statement.................................................    48
  Prepared Statement.............................................    50
Mr. Joshua D. Filler, Director, Office of State and Local 
  Government Coordination, Department of Homeland Security:
  Oral Statement.................................................    56
  Prepared Statement.............................................    58


     A PROGRESS REPORT ON INFORMATION SHARING FOR HOMELAND SECURITY

                              ----------                              


                        Wednesday, July 20, 2005

                  House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2257, Rayburn House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Cox, Souder, Lungren, 
Jindal, Reichert, Dent, Thompson, Lofgren, Lowey, Jackson-Lee, 
Etheridge, and Langevin.
    Mr. Simmons. [Presiding.] Good morning. The Committee on 
Homeland Security, Subcommittee on Intelligence, Information 
Sharing, and Terrorism Risk Assessment will come to order.
    The subcommittee is meeting today to hear testimony on the 
state of homeland security information sharing between the 
Department of Homeland Security and state and local government 
entities, and to explore how DHS information-sharing efforts to 
date can be enhanced.
    In order to examine how DHS information-sharing efforts are 
currently working, and perhaps to explore how they can work 
better, we are going to hear from two panels: one representing 
the state, local and tribal perspective, and the other the 
Department of Homeland Security's perspective. The witnesses on 
our first panel today are Mr. John Cohen, Senior Homeland 
Security Policy Adviser for the Commonwealth of Massachusetts; 
Mr. Gary Edwards, Chief Executive Officer of the National 
Native American Law Enforcement Association; and Dr. Lee 
Colwell, Executive Director of the Pegasus Research Foundation.
    I thank you all, gentlemen, for being here today.
    The ability to share relevant terrorist-related information 
is key to preventing future attacks. In the wake of the 
terrible bombings in London on July 7, we are reminded that 
prevention is of paramount importance. The department is 
working diligently to ensure that structures and policies are 
put into place to give our intelligence and law enforcement 
entities the tools they need to prevent terrorist attacks. We 
have established within the DHS the Information Analysis and 
Infrastructure Protection Directorate.
    We have created or supported an agreement, a memorandum of 
understanding on information sharing requiring all federal law 
enforcement, intelligence and homeland security agencies, to 
share terrorist-related information. We have established the 
Terrorist Threat Integration Center, the Terrorist Screening 
Center, and most recently the National Counterterrorism Center, 
in order to better coordinate and share information. And so on 
and so on and so forth.
    The department's Homeland Security Operations Centers 
serves as the nation's nerve center for information sharing, as 
a point of fusion for homeland security-related terrorist 
threat information. There are advisories and bulletins 
concerning threats to homeland security, and they manage the 
homeland security information network which is deployed to over 
260 sites across the country. While the department is working 
to increase the federal government's ability to share 
information, there are also a variety of efforts underway 
across the nation at state, local and tribal levels.
    I had the honor and the privilege of serving for over 35 
years in the U.S. Army before my retirement a few years ago. 
For over 35 of those years, I was in military intelligence. I 
also had the experience of serving for 10 years as a CIA 
officer for most of those years under cover, actually for all 
of those years under cover, and for most of those years 
overseas. The culture of the intelligence community in my 
experience over those 35 years, the culture of the intelligence 
community is not to share. Sharing goes against the culture of 
the intelligence community. They want to protect sensitive 
sources and methods. They want to keep secrets. So there is a 
reluctance to share information. We understand that. Those of 
us who have served in the intelligence community understand 
that.
    So the idea of intelligence information sharing, 
intelligence information sharing, is in many respects an 
oxymoron. It is kind of like jumbo shrimp, government 
efficiency. I could do a few more, but I do not want to offend 
anybody. So what we are talking about today is something new 
and different, but it is critically important if we are to 
prevent another 9/11. It is critically important if we are to 
protect our people and to provide for their homeland security.
    So that is why we are pleased to offer this hearing today 
and to hear from our witnesses.
    At this point, I would like to yield to my friend and 
colleague, the very distinguished ranking member of the 
Intelligence Subcommittee, Ms. Lofgren of California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I will submit my full statement for the record, but I would 
like to note that I think this important hearing is timely. We 
need to be concerned about the sharing of information within 
intelligence agencies, but also perhaps even more importantly 
with agencies who are not intelligence agencies, our local and 
state police officials.
    We have more than 18,000 state and local and tribal law 
enforcement agencies across the United States, more than 
800,000 law enforcement officers. These officers have intimate 
knowledge of the communities they serve, and they develop close 
relationships with the citizens they protect. They are in a 
unique position to track down terrorist-related information, to 
understand and develop prevention information, but they need to 
be our partners, our intelligence partners in order to do that 
effectively.
    I think we need to figure out how to get the police officer 
on the street the information that he or she needs to identify 
terrorist and to foil their plans. There are multiple efforts 
underway at all levels of government to meet the challenge, but 
there are some common principles I think that should govern the 
work. First, there should be agreement on what law enforcement 
needs to know. In my mind, I think they need to know the 
threats to specific locations, events, and specific 
infrastructure sectors. They need to know methods used by 
terrorist to plan, support and carry out attacks, and the 
individuals and/or organizations involved in terrorism-related 
activity.
    Second, there needs to be agreement on why law enforcement 
needs to know this information. It needs to know it so it can 
guide efforts to prevent terrorist attacks. We do not want to 
respond. We want to prevent. And also to develop protective and 
continuity measures and emergency response plans. We need to 
design training programs and exercises. We need to select 
equipment and technology to be acquired for these efforts, and 
we need to develop budget and staffing plans in a coordinated 
and strategic way.
    Finally, there should be agreement that the potential 
solution might not come from the top down. To the extent that 
state, local and tribal law enforcement agencies have developed 
successful methods and means of sharing information, 
consideration should be given to adapting these home-grown 
sharing approaches regionally and even nationally.
    So I am glad to be here today. I look forward to the 
witnesses. As I mentioned to the Chairman, I do have to step 
out for a meeting with the Democratic Leader at 10:30, but I 
will be back shortly after that meeting. Our wonderful ranking 
member, who has spent an enormous time on this, certainly is 
here. I am grateful to him for his expertise and attention to 
this effort.
    I yield back. Thank you.

             Talking Points for Ranking Member Zoe Lofgren

    I am pleased that this Subcommittee is turning its attention once 
again to the critical issue of information sharing.
    In view of the recent devastating terrorist attacks in London, the 
question of how we promote effective information sharing in order to 
discover terrorist threats and to avert them could not be more timely.
    Like Mr. Thompson, I have long been concerned about how and to what 
extent intelligence information is being shared--not only among the 
CIA, the FBI, and the Intelligence Community generally, but also (and 
perhaps most importantly) with state, local, and tribal law enforcement 
authorities.

The Role of Local Law Enforcement
    As the September 11th attacks demonstrated, local law enforcement 
officers will likely be among the first responders to any future 
terrorist attack. Such officers should not be limited, however, to a 
merely responsive role. Instead, they can and should play a vital part 
in the investigation and prevention of terrorist attacks.
    They are in a unique position to do this.
    More than 18,000 state, local, and tribal law enforcement agencies 
across the United States--comprising more than 800,000 law enforcement 
officers--have intimate knowledge of the communities they serve and 
accordingly have developed close relationships with the citizens they 
protect.
    These relationships provide officers with the ability to 
effectively track down terrorist-related information.
    Officers on their day-to-day patrols interacting with the members 
of their communities can--if properly trained in what to look for and 
what questions to ask--be valuable sources of information and 
intelligence for the national homeland security effort.
    In order to make use of this capability, however, it is essential 
for federal, state, and local law enforcement agencies to develop an 
efficient and comprehensive system for the timely sharing, analysis, 
and dissemination of specific and actionable intelligence information.
    In other words, we need to figure out how to get the police officer 
on the street the information that he or she needs to identify 
terrorists and to foil their plans.

The Information Locals Need and Why They Need It
    I am aware that multiple efforts are underway at all levels of 
government to meet this challenge. While the extent of integration 
among these efforts is unclear, I believe several common principles 
should govern this work:
    First, there should be agreement on what local law enforcement 
needs to know. In my mind, it needs to know: (1) the threats to 
specific locations, events, and specific infrastructure sectors; (2) 
the methods used by terrorists to plan, support, and carry out attacks; 
and (3) the individuals and/or organizations involved in terrorism-
related activity.
    Second, there should be agreement on why law enforcement needs to 
know this information. In my mind, it needs to know it so it can: (1) 
guide efforts to prevent terrorist attacks; (2) develop protective and 
continuity measures and emergency response plans; (3) design training 
programs and exercises; (4) select equipment and technology to be 
acquired for these efforts; and (5) develop budget and staffing plans.
    Third, there should be agreement that potential solution might not 
come from the top down. To the extent state, local and/or tribal law 
enforcement agencies have developed successful means and methods of 
sharing information, consideration should be given to adapting these 
``home grown'' sharing approaches regionally and even nationally.

Conclusion
    I am very glad that we have represented here today such a wide 
range of voices and expertise on information sharing. I look forward to 
your testimony and to hearing your ideas on how to create a workable 
information sharing environment.

    Mr. Simmons. I thank the distinguished ranking member of 
the Intelligence Subcommittee for her observations. I also 
thank her for partnering on this hearing here today.
    The chair now recognizes the chairman of the full 
committee, the distinguished gentleman from California, Mr. 
Cox, for any opening statement he might wish to make.
    Mr. Cox. Thank you very much, Mr. Chairman. I want to thank 
you and the ranking member. A progress report on information 
sharing on homeland security is a welcome thing. I think it is 
an indispensable part of this committee's oversight 
responsibilities.
    This morning, we begin by hearing from state, local and 
tribal government officials. That is unconventional only 
because we in Washington have a tendency to focus our attention 
on executive branch agencies, on the federal government. A 
homeland security enterprise properly conceived calls for a 
different approach.
    I suppose that state, local and tribal governments are in 
theory equal partners, and that is the premise of this hearing. 
They are supposed to be equal partners with the federal 
government in a joint enterprise. So they must be, if potential 
terrorist attacks are to be prevented across this country in 
the future.
    The federal government, even the Department of Homeland 
Security, is not everywhere. State, local and tribal 
governments, by contrast, are. It has been well over 2 years 
since the attorney general, the director of central 
intelligence, and the secretary of homeland security signed 
their memorandum of understanding on information sharing, 
committing intelligence, law enforcement and homeland security 
agencies alike to certain core principles. That MOU called for 
specific actions to implement the Homeland Security Act.
    It contained the following plain statement: ``Providing all 
timely and relevant homeland security-related information to 
those who have a need to know it in order to assist them in 
meeting their homeland security-related responsibilities is 
fundamental to the success of the department and to all other 
efforts to ensure the security of the homeland from terrorist 
attacks. Delay in providing such information risks frustrating 
efforts to meet these critical responsibilities and could 
result in preventable attacks against U.S. persons and 
interests failing to be preempted, prevented or disrupted.''
    We on this committee often stressed that preventing 
terrorist attacks must be our overriding priority, and we, like 
every commission and blue ribbon panel that has looked into 
these matters, understand that the failure promptly to share 
all pertinent information was the single preeminent factor in 
the government's failure to prevent the 9/11 attacks. It was in 
fact 2 years ago almost to the day that, in opening a select 
committee hearing on this same topic, I noted that if it is 
true that the tragedy of the 9/11 attacks teaches information 
and good intelligence is the lifeblood of homeland security, 
then it is also true that the information must move and must 
circulate. Sadly, that has not always happened.
    That was my assessment of the state of affairs in 2003, in 
July. Two year later, I think it is fair to expect real 
progress, and that is why we are here today. We want to be 
reassured that DHS in particular has engaged its nonfederal 
government counterparts as equal partners in the homeland 
security enterprise. We want to know that there are now 
mutually satisfactory mechanisms to enable the two-way 
communication, the two-way flow of information, to and from DHS 
and its state, local and tribal government partners that this 
enterprise contemplates. That, in itself, would be real 
progress.
    So, Mr. Chairman, I want to focus as we move forward with 
this hearing on what I think it would be realistic to expect, 
and at the same time, what would be unrealistic to expect. I 
think it might be unrealistic to expect state, local and tribal 
governments' preventive efforts to be very effective if they 
are not routinely informed by the relevant predictive 
intelligence that the federal government produces. Nor would 
the federal government be serving its nonfederal customers well 
if it merely passes on a welter of raw information, or by 
speaking to those customers with an inconsistent analytic 
voice, a problem this committee addressed squarely in passing 
the department's initial authorization act, H.R. 1817, 
overwhelmingly just 2 months ago.
    So today we look forward to hearing that information 
sharing has progressed. We hope to hear how the structural 
reforms engendered by the secretary's second-stage review will 
further consolidate and enhance that progress. Where, by 
contrast, shortcomings emerge, I am confident that this 
committee will continue to lead in the effort to ensure that a 
failure adequately to share information can never again be 
cited as the reason a terrorist attack could succeed.
    Thank you, Mr. Chairman.
    Mr. Simmons. I thank the chairman for his comments.
    I agree completely that I suppose our worst nightmare is a 
situation where there might be another successful attack in the 
homeland, and we learn as part of the process of an after-
action report that there was information available that simply 
was not shared with the people that need it. That is our goal, 
to avoid that type of a situation from occurring.
    The chair now recognizes the distinguished ranking member 
of the full committee, the gentleman from Mississippi, Mr. 
Thompson, for any comments he would like to make.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Like my colleagues, I look forward to the testimony of both 
panels.
    I would like to give a special welcome to Dr. Colwell from 
the Pegasus Foundation. He just happens to be from my district 
and doing good work.
    But nonetheless, Mr. Chairman, this hearing is a very 
important hearing. The tragic attacks in London 2 weeks ago 
demonstrated to all of us once again that terrorists think 
nothing of killing innocent people in their war against open 
democratic societies. Terrorists are not only foreign 
infiltrators, but homegrown radicals that blend easily into the 
various societies that they have come to despise.
    What I found so shocking about London, beyond the senseless 
carnage, was the fact that neither the British nor our own 
intelligence services saw the attacks coming. We at last 
addressed information sharing in depth in the 108th Congress, 
prior to the issuance of the 9/11 Commission report. In this 
report, the commission called for major reforms in the 
intelligence community organization of practices, including the 
development of a decentralized network for information sharing. 
It made clear that improving border security, preparing first-
responders, and security critical infrastructure is not enough. 
We will not be safe unless we are effectively sharing 
information about terrorists and their plans.
    Information sharing, however, means much more than getting 
the CIA, the FBI and other members of the federal intelligence 
community to talk to each other. It also means improving 
information sharing with the law enforcement officer in the 
street. This includes reaching out to the law enforcement in 
rural and small communities. Ninety-percent of the law 
enforcement agencies within the United States serve communities 
of less than 25,000 people. Over 75 percent of police 
departments across the nation, moreover, serve communities of 
less than 10,000 residents. As the 9/11 Commission 
demonstrated, it is in these localities that law enforcement 
will first encounter the next group of terrorists.
    Indeed, it was the local police officers who stopped three 
of the 9/11 hijackers for routine traffic violations in the 
weeks and months prior to the September 11 attacks. The rest, 
the right-wing extremists like Timothy McVeigh and Eric Rudolph 
in rural jurisdictions, further highlight the often critical 
role that law enforcement in these areas plays in the 
apprehension of terrorists.
    Rural America is likewise home to much of the nation's 
critical infrastructure, including agriculture, food production 
facilities, dams, nuclear power plants and portions of electric 
grids. For all of these reasons, I am very interested in how 
information sharing is working and how it is developing for the 
benefit of small and rural communities. While much of our 
homeland security attention has been focused on large cities 
and urban areas like New York, Washington, Chicago and Los 
Angeles, and rightfully so, it is critical that we also ensure 
that our small communities and towns are looped into 
information-sharing networks.
    Mr. Chairman, I look forward to the testimony of our 
witnesses, particularly on their views on information sharing 
in rural America.
    I yield back.
    Mr. Simmons. I thank the ranking member for his comments.
    Other members of the committee are reminded that opening 
statements may be submitted for the record.
    Mr. Simmons. Now, I would like to call the first panel: Mr. 
John Cohen, senior homeland security policy advisor for the 
Commonwealth of Massachusetts; Mr. Gary Edwards, chief 
executive officer of the National Native American Law 
Enforcement Association; and Dr. Lee Colwell, executive 
director for the Pegasus Research Foundation.
    Gentleman, if you don't mind testifying in that order, we 
have a 5-minute clock that will give you a green light, a 
yellow light, and a red light. I think anybody who has been 
involved with any form of law enforcement understands that the 
yellow light does not mean slow down, it means speed up. And 
the red light means stop. We would encourage you to summarize 
your testimony because we have copies in our books and can 
probably read faster than you can speak. So we encourage that 
you summarize, stick to the 5-minute rule so that we will have 
an opportunity to ask questions and interact.
    That being said, I would ask Mr. Cohen to lead off. Mr. 
Cohen?

   STATEMENT OF JOHN COHEN, SENIOR HOMELAND SECURITY POLICY 
  ADVISOR, EXECUTIVE OFFICE OF PUBLIC SAFETY, COMMONWEALTH OF 
                         MASSACHUSETTS

    Mr. Cohen. Thank you, Mr. Chairman, Chairman Cox, members 
of the committee. I appreciate the opportunity to appear before 
you today.
    Recently, the homeland security advisers from a vast 
majority of the states came together under the umbrella of the 
National Governors Association. There was clear consensus among 
that group that at the end of the day this is the most 
important issue facing us as we try to better protect our 
communities or be prepared to respond should an attack occur, 
because again at the end of the day, everything we do as it 
relates to homeland security, whether it is response planning, 
recovery planning, critical infrastructure protection and 
resiliency initiatives, or prevention activities, depends on 
accurate and credible information about those who want to 
attack us, the targets they intend to attack, and how they wish 
to carry out those attacks.
    If I had to describe to you, well, since I am here I am 
describing to you, where we are today as a nation with regard 
to this, I would have to tell you that we have made great 
progress over the past 2 years, but we are still not where we 
should be or must be if we are going to be effective in 
protecting our communities from future attack.
    Governor Mitt Romney of Massachusetts has chaired for the 
last 1 1/2 years a working group comprised of state and local 
officials. My friend, Mr. Edwards, was a participant in that 
process, where we looked at the role that state, local, tribal 
entities and the private sector should play in supporting our 
prevention efforts and most importantly, the role they should 
play in efforts to gather, analyze, share and use homeland 
security-related intelligence. So much of what I am about to 
say to you and much of what was contained in my written 
testimony that was submitted are the results of those efforts.
    Today, from an information-sharing perspective, we still 
depend on a national system that can best be described as a 
patchwork of ad-hoc processes, protocols and technical 
capabilities that still require state and local officials to 
develop strong interpersonal relationships with representatives 
from key federal agencies. Particularly in times of critical 
threat evaluation or emergency situation, we depend more on 
those interpersonal relationships than on a solid, well-
defined, institutionalized infrastructure to support 
intelligence and information sharing.
    The Department of Homeland Security and the FBI are doing a 
much better job at providing state, local and tribal entities 
an integrated intelligence product. But at the same time, we 
still receive from both those entities large quantities of 
nonactionable intelligence and information, which actually 
comes to us at times with a caveat that this information has 
been deemed noncredible, of course facilitating us to ask the 
question, why is it being sent to us in the first place?
    Even though the Department of Homeland Security and the 
Federal Bureau of Investigation are doing a much better job of 
integrating the product that they send out to state and local 
entities, we still receive considerable amounts of intelligence 
and information from other federal entities who clearly are not 
collaborating with the FBI and the Department of Homeland 
Security prior to sending that information out, and at times we 
receive information that is conflicting or cannot be verified 
from some of the key intelligence sources that we rely on to do 
our planning.
    There still is no national plan that provides clear 
guidelines for how state, federal, local and tribal entities 
and the private sector should work together to gather, analyze, 
disseminate and share homeland security-related intelligence, 
recognizing that it is a complex issue because much of this 
information is protected by privacy and other types of 
guidelines that restrict the inappropriate disclosure of that 
information.
    There remains an over-emphasis at the federal level on 
providing classified information and intelligence to state and 
local entities. There is an over-emphasis on trying to create 
closer linkages or actually draw state and local entities into 
the intelligence community. This is a significant issue because 
at the end of the day if I am going to be effective in 
protecting our local communities, working with our local, 
tribal and private sector entities to be prepared to respond, I 
need to share critical intelligence with them. If it is 
provided to me in a classified format and I have to share it 
with people who do not have appropriate clearances in order to 
do my job, I am put in the position of either not doing what I 
need to do to be effective, or violating the law.
    The emphasis should be on the federal community coming 
together and providing unclassified intelligence and 
information to state and local authorities. Clearly, there are 
times when they will need to share classified information. We 
should put the infrastructure in place to do that, but the rule 
should be unclassified information.
    There is some good news. There is a greater level of 
sophistication at the state and local level with regard to 
their role in this whole intelligence cycle. You are seeing the 
emergence of intelligence fusion centers in most of our major 
cities and states. Unfortunately, a lot of money was spent over 
the past several years by state and local governments in 
establishing these centers without any clear guidelines. The 
Homeland Security Advisory Council, working with the Global 
Justice Information Sharing Working Group, has developed those 
guidelines. We are working with DHS and the FBI and the Justice 
Department to send those out.
    I just would leave the committee, since my light is red, 
with two final thoughts. As everybody pointed out, state and 
local entities are important gatherers of intelligence, but 
that does not mean that we should act as spies or practice 
tradecraft of the intelligence community. We should be focusing 
on taking that information which we gather in our day-to-day 
crime control and other delivery of emergency and non-emergency 
services, and being better able to determine when there is a 
linkage with terrorism, as opposed to asking us to carry out 
the function of an intelligence agency.
    Secondly, I would just re-emphasize that as consumers of 
intelligence, we need this intelligence to guide prevention 
efforts, but also response, recovery and continuity planning. 
It guides everything we do at the state and local level as it 
relates to homeland security.
    Thank you, Mr. Chairman.
    [The statement of Mr. Cohen follows:]

                  Prepared Statement of John D. Cohen

    Mr. Chairman, members of the Subcommittee good morning. My name is 
John Cohen and I currently serve as the Senior Homeland Security Policy 
Advisor to the Commonwealth of Massachusetts. In that capacity, I am a 
direct advisor to the Governor of Massachusetts Mitt Romney and the 
Secretary of the Executive Office of Public Safety Edward Flynn. I 
appreciate the opportunity to be here with you today.
    The hearing today is entitled ``A Progress Report on Information 
Sharing for Homeland Security''--and for state, local and tribal 
governments there truly is no more important issue because at the end 
of the day, the efficacy of our prevention, response, and recovery 
efforts all depend upon the effective collection, analysis, sharing, 
and use of timely and accurate intelligence about those who wish to 
attack us, the targets they intend to attack and the methods they 
intend to use.
    Terrorism-related intelligence is not solely utilized by or derived 
through the efforts of the Intelligence Community. The attacks of 9/11 
and the recent bombings in London taught us that today our enemy may 
not always be overseas--he or she may live in our local communities--
and engaged in criminal and/or other suspicious activity as they plan 
attacks on targets within the United States and its territories. 
Intelligence and/or information regarding possible attacks--possessed 
by federal authorities must be provided in a timely manner to state, 
tribal, local and key private sector entities to support information-
driven efforts to protect our communities. Furthermore, information 
that may forewarn of a future attack may initially come to the 
attention of authorities through local crime control activities or by 
reports made by the general public.
    The Intelligence Community plays a critical role in managing the 
flow of terrorism-related intelligence among critical stakeholders. 
But, until recently, the manner in which our modern day Intelligence 
Community operated and the mindset it operated under for the most part 
was established during the Cold War and designed to confront foreign-
based, state-sponsored adversaries. Efforts are underway to restructure 
the Intelligence Community so that it can better meet the challenges of 
the post 9/11 world. This restructuring must include defining the 
appropriate roles for state, tribal, local, and private sector entities 
in the collection, analysis, dissemination and use of this intelligence 
and information--and how those efforts should be coordinated with those 
of the Federal Government. This debate represents an historic 
opportunity to enhance existing information sharing between all levels 
of government--and--the threat to the nation demands that we proceed 
expeditiously. But--we must also proceed thoughtfully and consider all 
of the civil liberty and financial implications before asking state, 
tribal, local and private sector entities to take on new 
responsibilities.

BACKGROUND
    In an open society, it is impossible to protect against every 
possible type of attack. While all appropriate steps should be taken to 
protect and secure our society and we should continue our efforts to 
have a robust response effort, the key to protecting America is to 
prevent another attack. To be fiscally prudent and operationally 
effective, prevention efforts must be intelligence-driven, adaptable, 
multifaceted, prioritized, and designed to effectively support efforts 
to:
        <bullet> Identify and target for arrest, prosecution, 
        incarceration, and/or other enforcement actions, such as 
        deportation, people who have been determined to be supporting, 
        planning, and/or intending to carry out an attack.
        <bullet> Protect potential targets from being attacked--this 
        means enhancing the physical security of high-risk targets to 
        reduce their attractiveness to potential attackers and ensuring 
        the continuity of critical services to minimize the impact of 
        an attack at a single or multiple locations.
        <bullet> Disrupt the ability of terrorists to plan and conduct 
        operations--State, local, and tribal entities can effectively 
        disrupt the ability of terrorists to operate according to their 
        plan and force them to change their methods of operation, 
        thereby exposing them to potential discovery by disrupting 
        their financial support networks and implementing--in an 
        unpredictable manner--aggressive protective measures such as 
        counter-surveillance of potential targets and directed patrol.
    The key to prevention is intelligence. We have spent billions in 
America since 9/11 on response--it is time now to put equal and greater 
attention on the challenge of preventing future attacks. We need to get 
our intelligence operations functioning at the level needed for the 
threats we now face. While the federal government clearly has primary 
responsibility for intelligence, the state and local governments must 
play a major role. We are the eyes and ears on the front lines in the 
homeland. And while this doesn't mean that state and local authorities 
should begin spying on the public, it does mean that in the course of 
our day-to-day duties we gather information that may have a nexus with 
a terrorist threat and this information needs to be organized, analyzed 
and distributed to those who can act on it. Information sharing between 
federal, state, local, tribal and private sector entities has improved 
since the attacks of 9/11, but it is still not as effective as it 
should be--and must be--if we are going to protect our communities from 
future attack.
    Over the past year, state, tribal and local officials have worked 
to better define the role state and locals should play in intelligence 
gathering and information sharing. We have also thought about what we 
need from the federal government if we are to play our role 
successfully. In June 2004, with the concurrence of then DHS Secretary 
Tom Ridge, Massachusetts Governor Mitt Romney established the Homeland 
Security Advisory Council (HSAC) Intelligence and Information Sharing 
Working Group (Working Group) to review the roles, responsibilities, 
and requirements of state and local government entities as related to 
the collection, analysis and dissemination of terrorism-related 
intelligence information. The Governor established the Working Group in 
recognition that while there seemed to be general agreement at all 
levels of government that the sharing of terrorism-related 
intelligence/information is vital to our nation's efforts to detect, 
prevent, and effectively respond to acts of terrorism here at home, it 
is still somewhat unclear what state and local
    entities should be doing as a part of a national effort in this 
regard.\1\
---------------------------------------------------------------------------
    \1\ The Intelligence and Information Sharing Working Group was 
comprised of state, tribal, local and private sector officials 
representing various disciplines. The Working Group worked closely with 
members of the Global Justice Information Sharing Working Group--a 
Department of Justice sponsored advisory committee comprised of state 
and local law enforcement officials. Representatives from the 
Department of Homeland Security, the Department of Justice and the 
Federal Bureau of Investigation actively participated in all of the 
Working Group's efforts.
---------------------------------------------------------------------------
    In December 2004, the HSAC Intelligence and Information Sharing 
Working Group issued a report that included a number of findings and 
recommendations intended to better define what state, tribal and local 
governments should be doing as part of our nation's efforts to collect, 
analyze, disseminate and use terrorism-related intelligence (a summary 
of that report is included as an attachment to this testimony). At that 
time, the Working Group reported that almost every state is 
establishing an ``information fusion center''--a location where 
homeland security-related information can be collected and analyzed. 
But the Working Group also found that there was no common definition of 
fusion nor were there standards to guide the states in doing so. The 
Working Group was asked by Secretary Ridge to develop a list of 
functional attributes for use as a guide by state, tribal and local 
entities as they seek to establish statewide and urban area ``fusion 
centers.''
    On 4/28/05, the Governor formally presented to the HSAC guidelines 
to support establishing a state-based, nationwide fusion capacity--
recognizing that every level of government and the private sector has a 
role in the fusion process (a copy of the April report is included as 
an attachment to this testimony).

INFORMATION FUSION
    The process that has become known as ``information fusion'' 
represents the organizing principle that supports an effective national 
homeland security intelligence capacity. The Working Group defined the 
term ``fusion'' as the overarching process of managing the flow of 
information and intelligence across levels and sectors of government 
and the private sector to support the rapid identification of emerging 
terrorism-related threats and other circumstances requiring 
intervention by government and private sector authorities. It is a key 
part of our nation's homeland security efforts because it supports the 
implementation of risk-based, information-driven prevention, response, 
and consequence management programs. It means more than the one-time 
collection of law enforcement and/or terrorism-related intelligence 
information and it goes beyond establishing an intelligence center or 
creating a computer network. It is a clearly defined and ongoing 
process that involves the blending of information from:
        <bullet> The intelligence and information management systems 
        used to support the core missions of individual Federal, state, 
        tribal and local government entities;
        <bullet> The general public; and
        <bullet> Private sector entities.
    The Working Group report acknowledges that the way in which 
individual jurisdictions and regions implement the fusion process will 
vary taking into account their specific needs, capabilities and 
resources. The Working Group's report lists a number of factors 
critical to an effective intelligence/information fusion process--these 
include:
        <bullet> Common terminology used by all stakeholders;
        <bullet> Up-to-date awareness of the global and domestic 
        threats;
        <bullet> An understanding of the linkages between terrorism and 
        non-terrorism related information so that we can recognize 
        ``precursors'' or ``indicators'' of an emerging threat;
        <bullet> Intelligence and information requirements that 
        prioritize and guide planning, collection, analysis, 
        dissemination and re-evaluation efforts;
        <bullet> Understanding and elimination of impediments to 
        information collection and sharing;
        <bullet> Extensive and continuous interaction with the private 
        sector and with the public at-large;
        <bullet> A commitment to ensure aggressive oversight and 
        accountability so as to protect against the infringement of 
        constitutional protections and civil liberties.
    The Working Group recommended that minimally, each state should 
establish and maintain an analytic center to facilitate the fusion 
process--Each major urban area (as defined by the UASI program) may 
want to establish a similar capacity ensuring that it is interlinked 
with the fusion process established by the state. Additionally, there 
needs to be some consideration of where these fusion centers link into 
the federal system.
    Secretary Chertoff--as well as a numerous other federal, state, 
local and private sector entities--have been briefed on the efforts and 
findings of the Working Group. Information contained in both reports 
have been incorporated into the guidelines and other materials being 
developed by the Department of Homeland Security that are intended to 
support efforts by state, tribal and local governments to enhance their 
capacity to prevent, respond to and manage the consequences of a 
terrorist attack.

CONCLUSION
    The initial report of the HSAC Intelligence and Information Sharing 
Working Group outlines the roles state and locals should play in 
intelligence gathering and information sharing, and it also outlines 
what we need from the federal government if we are to play our role 
successfully. This report has been given serious consideration by the 
White House and by DHS as they write preparedness standards for state 
and local governments, and I hope that the federal government will also 
consider the critical role of state and locals in intelligence as they 
restructure the federal intelligence environment.
    The follow-up report on standards for fusions centers in the states 
comes at a time when most states have one or more fusion centers under 
development. For this reason, and recognizing that it is ineffective to 
demand that the same structure be used in every state or large urban 
area, we have focused instead on the process that should take place in 
a fusion center--what are the inputs and outputs needed for a state's 
fusion operation to be effective.
    Equally important is the report's recommendation that the federal 
government recognize that states are establishing a fusion process and 
that the federal government needs to take this into account as they 
restructure the federal environment. We have made clear what we need 
from the federal government in order to be effective in our role--and 
we will focus in the states on putting together the fusion operations 
on the ground that can ensure we have a robust intelligence operation 
working at every level throughout our country.

    Mr. Simmons. Thank you very much for that testimony. 
Congratulations, you finished at the red light. Good going.
    Mr. Gary Edwards, we look forward to your testimony, sir.

 STATEMENT OF GARY EDWARDS, CHIEF EXECUTIVE OFFICER, NATIONAL 
          NATIVE AMERICAN LAW ENFORCEMENT ASSOCIATION

    Mr. Edwards. Thank you, Mr. Chairman, Mr. Vice Chairman and 
distinguished members of the committee. My name is Gary 
Edwards. I am the chief executive officer of the National 
Native American Law Enforcement Association, also known as 
NNALEA.
    I am honored and pleased to appear before this committee 
and the Subcommittee on Intelligence, Information Sharing and 
Terrorism Risk Assessment to discuss the progress of 
information sharing for homeland security. Thank you for this 
opportunity to address you.
    I ask that my written testimony be entered into the record.
    Mr. Simmons. Without objection.
    Mr. Edwards. NNALEA is a nonprofit public service 
organization formed in 1993. Among other things, we provide a 
media for the exchange of ideas and new techniques, establish 
networks for training collaboration, technical assistance, 
information sharing and investigative assistance between 
federal, tribal, state and local governments and agencies and 
the private sector.
    We have conducted 12 national training conferences, and 
this year we are going to be conducting our 13th national 
training conference on November 15 through 17, 2005, in Las 
Vegas, Nevada. We are sure that some of the hot topics will be 
homeland security and information sharing. You are all invited 
to attend.
    In my capacity as the chief executive officer of the 
National Native American Law Enforcement Association, I serve 
on a number of advisory committees, task forces and working 
groups for the Department of Homeland Security and the 
Department of Justice. It is my opinion that the progress of 
information sharing for homeland security can be best 
understood by comparing today's information sharing for 
homeland security with that of the past.
    Prior to the formation and efforts of the Department of 
Homeland Security, information sharing on issues relating to 
the security of our homeland was handled in patches, wherein 
the federal departments, states, tribes, localities and the 
private sector would largely engage in information sharing for 
homeland security independently and through limited 
coordination. There was not a master weaver, so to speak, to 
achieve a seamless fusion of all the patches.
    The result was, in the past, although there was some 
information sharing, there was no comprehensive plans, no 
centralized coordination, no seamless functionality of 
information sharing for homeland security. With the formation 
of the Department of Homeland Security, the information sharing 
to secure our homeland was finally given its much needed master 
weaver.
    Presently, the Department of Homeland Security has placed a 
great focus on information sharing for homeland security. 
Secretary Chertoff stated, ``The ability to share information 
with our international, state, tribal, local partners, the 
private sector, law enforcement and first responders is 
absolutely critical to our success.''
    The Department of Homeland Security has employed a national 
approach engaging national agencies such as the National 
Congress of American Indians and the National Native American 
Law Enforcement Association, among numerous others, to work 
toward achieving information sharing goals such as the 
integration among public and private stakeholders of the roles 
and responsibilities for the security of our homeland: seamless 
functionality for information sharing, establishment of 
effective partnerships for information sharing, information 
sharing pertaining to prevention, protection, all-hazards 
response and recovery, establishment of comprehensive 
information sharing, centralized coordination of information 
sharing, promotion of greater situational awareness, and the 
fusion and sharing of a richer intelligence base.
    For example, NNALEA, the National Congress of American 
Indians and the Department of Homeland Security are currently 
conducting a tribal border security pilot program. The tribal 
border security pilot program is cutting edge and provides the 
Indian tribes located on or near the international borders of 
the United States with the opportunity to advance their 
respective tribe's ability to deal with threats or acts of 
terrorism, national disasters and other national emergencies, 
while also advancing Indian Country and national homeland 
security.
    In one phase, we used tribal border security pilot program 
tools to collect capabilities and information such as emergency 
management and public works, law enforcement, border security, 
detention facilities, emergency fire response, emergency 
medical responders, facilities, critical infrastructure, and 
environment and public safety communications and 
interoperability. The tribal border security presents this 
information to the Department of Homeland Security, which may 
use it in assessing the as-is environment of homeland security 
on our borders, as well as the homeland security capabilities, 
preparedness and assessments for the participation of tribes, 
among other uses.
    We must thank the 40 tribes for sharing this information 
with the Department of Homeland Security. It shows their 
vigilance in the protection of our nation.
    In the future, as we look to information sharing and 
homeland security progress, we must look at integration of 
information sharing systems between federal, state, tribal and 
local governments and agencies, as well as the private sector.
    This integration can be achieved through the following: the 
federal government clearly defining what type of intelligence 
and information is needed; the removal of barriers like long-
awaited security clearances; the empowerment of local and 
tribal law enforcement to collect intelligence; the creation of 
a legal structure for intelligence gathering and information 
sharing that law enforcement officers feel comfortable in; the 
removal of any legal impediments that prevent law enforcement's 
ability to gather legitimate information at the state, tribal 
and local levels without spying on people, and all the while 
protecting the constitutional and human rights of American 
citizens; the continued establishment of coordinated 
intelligence and information fusion centers; the development of 
clear, open interoperable communications and information-
sharing policies that require two-way information sharing 
between the federal departments, states, tribes, local entities 
and the private sector because top-down information sharing is 
an ineffective and inefficient method that creates untimely 
critical information sharing; the development of innovative 
means to build and maintain a personal relationship across our 
great homeland for personal relationships are the time-tested 
catalyst for information sharing; and the provision for funding 
for much-needed equipment, technology training, accreditation, 
certification, personnel pay parity and so forth to allow 
governments and agencies of different means to be able to 
achieve seamless information sharing for homeland security.
    As Winston Churchill once said, ``Give us the tools and we 
will finish the job.''
    Thank you again for this opportunity to speak, and I will 
answer any questions you may have for me.
    [The statement of Mr. Edwards follows:]

                 Prepared Statement of Gary L. Edwards

Introduction
    Mr. Chairman, Mr. Vice-Chairman and distinguished members of the 
Committee, my name is Gary Edwards and I am the Chief Executive Officer 
of the National Native American Law Enforcement Association 
(``NNALEA''). I am honored and pleased to appear before the House 
Committee on Homeland Security, Subcommittee on Intelligence, 
Information Sharing and Terrorism Risk Assessment to discuss the 
progress of information sharing for Homeland Security. Thank you for 
this opportunity to address you today.

Background on NNALEA
    As many of you may be aware, NNALEA is a non-profit public service 
organization founded in 1993, which among other things, provides a 
media for the exchange of ideas and new techniques, and establishes 
networks for training, collaboration, technical assistance, information 
sharing and investigative assistance between federal, tribal, state and 
local governments and agencies and the private sector. NNALEA has 
conducted twelve (12) National Training Conferences across the United 
States, and is currently preparing for its thirteenth (13) National 
Training Conference to be held on November 15-17, 2005 in Las Vegas, 
Nevada. Homeland Security and information sharing will be hot topics at 
this upcoming National Training Conference. In my capacity as the CEO 
of NNALEA I have served on a number of advisory committees, task forces 
and working groups of the Department of Homeland Security and the 
Department of Justice.

Information Sharing for Homeland Security_Past
    The progress of information sharing for Homeland Security can best 
be understood by comparing today's information sharing for Homeland 
Security with that of the past. Prior to the formation and efforts of 
the Department of Homeland Security, information sharing on issues 
relating to the security of our Homeland were handled in ``patches,'' 
wherein the federal departments, states, tribes, localities, and the 
private sector would largely engage in information sharing for homeland 
security independently or through limited coordination. There was not a 
``Master Weaver,'' so to speak, to achieve a seamless fusion of all of 
the ``patches.'' The result was that in the past, although there was 
some information sharing, there were no comprehensive plans, no 
centralized coordination, and no seamless functionality of information 
sharing for Homeland Security as a whole. With the formation of the 
Department of Homeland Security, information sharing to secure our 
Homeland was finally given its much needed ``Master Weaver.''

Information Sharing for Homeland Security_Present
    Presently, the Department of Homeland Security has placed a great 
focus on information sharing for Homeland Security. As Secretary 
Chertoff recently stated: ``The ability to share information with our 
international, state, [tribal] and local partners, the private sector, 
law enforcement and first responders is absolutely critical to our 
success.'' The Department of Homeland Security has employed a national 
approach, engaging national organizations such as the National Congress 
of American Indians (NCAI) and NNALEA, among numerous others, to work 
towards achieving information sharing goals such as: integration among 
public and private stakeholders of the roles and responsibilities for 
the security of our homeland; seamless functionality of information 
sharing; establishment of effective partnerships for information 
sharing; information sharing pertaining to prevention, protection, and 
all-hazards response and recovery; establishment of comprehensive 
information sharing plans; centralized coordination of information 
sharing; promotion of greater situational awareness; and the fusion and 
sharing of a richer intelligence base.
    For example, NNALEA, NCAI, and a number of other partners with the 
support of the United States Department of Homeland Security Office for 
Domestic Preparedness are currently performing the Tribal Border 
Security Pilot Program ("TBS Pilot Program"). The TBS Pilot Program is 
cutting-edge and provides Indian Tribes located on or near our 
International Borders with the opportunity to advance their respective 
Tribe's ability to deal with threats or acts of terrorism, natural 
disasters and other national emergencies, while also advancing Indian 
Country and National Homeland Security. In one phase of the TBS Pilot 
Program a number of information gathering tools are utilized to collect 
information on areas vital to Homeland Security, such as: Emergency 
Management and Public Works; Law Enforcement, Border Security and 
Detention Facilities; Emergency Fire Responders; Emergency Medical 
Responders and Facilities; Critical Infrastructure and Environment; and 
Public Safety Communications and Interoperability. It is anticipated 
that the Department of Homeland Security may use the information from 
the TBS Pilot Program as an aid in assessing the ``as is'' environment 
of Homeland Security on our borders, as well as a Homeland Security 
capabilities, preparedness and needs assessment of the participating 
Tribes, among other uses.
    Much recognition and many thanks should be given to the nearly 
forty (40) tribes who have graciously shared their information on the 
above areas for the TBS Pilot Program. Their participation is a 
testament to their vigilance for the security of our Homeland. In 
addition, much recognition and many thanks should be given to the 
United States Department of Homeland Security for its insightfulness in 
recognizing the important role that these border Indian Tribes play in 
our Homeland Security.

Information Sharing for Homeland Security_Future
    As information sharing for Homeland Security progresses into the 
future, the focus should continue to be upon the integration of 
information sharing systems between federal, state, tribal, and local 
governments and agencies, as well as the private sector. This 
integration can be achieved through the following:
        <bullet> the federal government clearly defining what type of 
        intelligence and information is needed;
        <bullet> the removal of barriers, like long waits for Security 
        Clearances;
        <bullet> the empowerment of local and tribal law enforcement to 
        collect intelligence;
        <bullet> the creation of a legal structure for intelligence 
        gathering and information sharing that law enforcement officers 
        feel comfortable in;
        <bullet> the removal of any legal impediments that prevent law 
        enforcements' ability to gather legitimate intelligence at the 
        state, tribal and local levels, without spying on people and 
        all the while protecting the Constitutional Rights and Human 
        Rights of American Citizens;
        <bullet> the continued establishment of coordinated 
        intelligence and information fusion centers;
        <bullet> the development of clear ``Open Interoperable 
        Communications Information Sharing Policies'' that require 
        ``two-way'' information sharing between the federal 
        departments, states, tribes, local entities and the private 
        sector, because `top-down' information sharing is an 
        ineffective, inefficient method that creates untimely critical 
        information sharing;
        <bullet> the development of innovative means to build and 
        maintain personal relationships across our great Homeland--for 
        personal relationships are the one time-tested catalyst for 
        information sharing; and
        <bullet> the provision for funding for much needed equipment, 
        technology, training, accreditations/certifications, personnel, 
        pay parity and so forth, to allow governments and agencies of 
        differing means to be able to achieve seamless information 
        sharing for Homeland Security.
    As Winston Churchill once said: ``Give us the tools and we will 
finish the job.''

Conclusion
    Thank you again for the opportunity to address you today. I am 
happy to answer any questions that any of you may have.

    Mr. Simmons. Thank you, Mr. Edwards.
    Now, I would like to recognize Dr. Colwell. Again, if you 
could summarize your key points in 5 minutes, that would be 
most helpful. I have already read your very good statement.

STATEMENT OF LEE COLWELL, EXECUTIVE DIRECTOR, PEGASUS RESEARCH 
                           FOUNDATION

    Mr. Colwell. Thank you, Mr. Chairman. I will be brief.
    I request the written statement that I submitted be entered 
in the record.
    Mr. Simmons. Without objection.
    Mr. Colwell. I will summarize, with your permission, 
comments made in the written statement.
    I want to talk about the functions of a 501(c)(3) 
foundation, the Pegasus program, and how it facilitates 
information sharing among our local-to-local law enforcement 
agencies, that is not without, although the mission is 
horizontal, it is not without vertical accessibility, given 
certain parameters.
    I think that we live in interesting and unprecedented 
challenging, changing paradigms involving how law enforcement 
does its job. I think that the recognition of a national 
imperative that existed long before it was identified has been 
good for our country and the noble efforts of this body and the 
executive branch are commendable.
    I would suggest that when we talk about federal, state and 
local, that we raise and, A-N-D, to all caps because local law 
enforcement agencies are where all of the day-to-day routine 
crimes occur, and that reservoir or body of information 
collected through traditional and historical law enforcement 
efforts is rich in data that can aid and support law 
enforcement at the local level, as well as at the national 
level with those agencies of the federal government that have 
the first-line responsibility for the strategies involving what 
we can do to protect our nation.
    I would like to spend a moment describing to you what the 
Pegasus program, Local-to-Local, is about. Briefly, Pegasus 
facilitates information sharing at the local-to-local level, 
the horizontal. This was started by the National Sheriffs' 
Association in the year 2000, prior to the tragic events of 9/
11. At that time, and in our view remains to this day, the only 
national initiative initiated through this body and funded 
through this body that directly involves facilitating and 
accessing by local law enforcement information agencies the 
information that is generated and created there. There is 
nowhere else that this data resides in the form that it is.
    There are summaries. There are statistical reports that are 
submitted. And there are certain warrants and crimes that rise 
on up through the system to the state and the federal level. 
Simply stated, the Pegasus program facilitates information 
sharing from disparate legacy databases, whatever is there, 
without changing it or modifying it in any way, and makes it 
accessible to other law enforcement agencies through a 
biometric fingerprint authentication process as part of the 
protocols for accessing the data system. We use a fingerprint.
    It is an Internet-based, secure, biometric fingerprint 
performing the following functions: access to legacy databases 
that do not meet, for the most part, the global justice XML 
standards. It would be a huge cost factor to try to change all 
those quickly. It provides a directory of law enforcement 
agencies and the personnel, a secure directory. It provides 
alert functions. It provides a consular notification function. 
When a foreign national is arrested by a local law enforcement 
agency, it provides notification to the consulate and the State 
Department.
    It links databases. It shares information. We have a 
governance board of sitting members, former and current 
members, sheriffs and chiefs. It does not compete or duplicate 
with existing databases or vendors. It works with the existing 
software and hardware. It does not extract data. It provides 
access. It is not an intelligence system. It is a voluntary 
participating process. There is no cost, thanks to the 
Congress, to the agencies who are linked up. It employs 
multiple vendors who actually perform and make up databases.
    We conform to the privacy laws and traditions of each state 
and those law enforcement bodies in which they operate. It is a 
system for law enforcement.
    Thank you, Mr. Chairman.
    [The statement of Mr. Colwell follows:]

                 Prepared Statement of Lee Colwell, DPA

    Chairman Simmons, Ranking Member Lofgren, and Subcommittee Members:
    Thank you for the opportunity to appear before this Committee and 
provide you with information and my views about law enforcement and 
homeland security information sharing, especially regarding the needs 
of local agencies for Local-To-Local (L2L) law enforcement data 
communications, not voice (i.e., public safety radio). I speak 
especially to the needs of agencies in rural and small-town America. 
Thank you also for the work you do to make all our communities and 
Nation safer places for all Americans.
    My name is Lee Colwell. I am Executive Director of the Pegasus 
Research Foundation, located in Little Rock, AR. I am a Former 
Associate Director of the FBI, the number two position in the FBI at 
the time, a retired university professor, a life member of the NSA and 
IACP. My entire professional career has been deeply involved in law 
enforcement and public safety at all levels of government.
    I am speaking on the need for L2L data communications, especially 
in rural areas, on behalf of the Pegasus Program, which includes 
Pegasus Technology Consortium members from Colorado, Iowa, Kentucky, 
Minnesota, Mississippi, Pennsylvania, and Virginia. I will discuss what 
the Pegasus program is, what Pegasus is not, what the program does, the 
background on local law enforcement, how Pegasus could assist the 
Department of Homeland Security, and a final comment on information 
sharing.
    I also reflect the views, I believe, of the approximately 700 local 
law enforcement agencies from more than 30 states, from Maine to 
California and Washington to Florida, and numerous points in between, 
which Pegasus currently serves, either by providing an outlet for their 
local agency legacy data, or by providing access to that data which is 
not available elsewhere, or both. A map showing the location of those 
local agencies involved in the Pegasus Program is attached to my 
written statement.

What the Pegasus Program Is
    The Pegasus program is Congressionally-led. Pegasus is locally 
managed as a nationwide initiative for highly-secure nationwide L2L 
legacy data exchange of local law enforcement and homeland security 
data. As far as we know, the Congressionally initiated Pegasus program 
is the only nationwide program with a strategy and plan for nationwide 
implementation.
    Pegasus is a good example of how Congress provided for previously 
unmet local agency needs to solve an essentially Federal problem by 
engaging thousands of local front line law enforcement personnel in the 
solution. Pegasus was initiated by the National Sheriffs' Association 
in 2000 and supported by Congress in 2001 prior to 9/11.
    With continued support, Pegasus provides a basic tool that serves 
local agency needs for L2L law enforcement data communications. This is 
especially critical to those small and rural agencies where the need is 
the greatest because they have limited or few financial and information 
technology resources and little or no access to local agency data from 
other areas.
    The Pegasus Program has been working with local agencies to build 
local agency consensus on local agency data sharing, namely:
        (a) what information do local agencies want to share;
        (b) how do they want to share it; and,
        (c) who do they want to share it with.
    Based on needs assessment work over several years and on-going 
policy guidance of local law enforcement, the Pegasus Program has 
implemented a technology solution that reflects the ``bottom-up'' needs 
of local agency. This program is designed to provide access to specific 
and actionable local law enforcement information on a real-time or 
near-real-time basis, and the ability to communicate that data without 
human intervention.
    During the first half of 2005, more than 750 county Sheriff's 
Offices and municipal police departments in more than 30 states 
participated in the Pegasus Program, either by contributing data, 
accessing data, or both. Pegasus is providing authorized secure access 
to local law enforcement booking and warrant data that is nowhere else 
available, and has taken first steps to provide access to local 
incident data nowhere else available. This has been achieved in a 
little over a year, with fairly nominal levels of Federal funding, and 
is poised to rapidly expand with additional funding.
    Built around secure encrypted Internet transport and the Department 
of Justice Global Justice XML Data Model and other Federal standards 
wherever possible, Pegasus uses commercial off-the-shelf (COTS) 
technology. The data is highly-secure, in particular through biometric 
fingerprint access authentication. This process is implemented through 
formal enrollment procedures and fingerprint-based authentication 
technology that is more resistant to ``hacking'' than commonly used 
UserID/Password systems. This authentication technology allows system 
administrators to ``track the insider'', which is perhaps the greatest 
security risk. To do this Pegasus uses COTS fingerprint readers that 
are marketed by a dozen different manufacturers and COTS software.
    Pegasus is a highly cost-effective vehicle for regional information 
sharing projects, especially for local agencies in small towns and 
rural areas that do not have the financial and information technology 
resources to build technology-intensive data sharing capabilities. A 
good example here is the rural law enforcement agencies in Virginia, 
West Virginia and Maryland located near Clarke County, Virginia which 
work with the Mount Weather Police Department to provide security to 
FEMA facilities in the area. These local agencies want and need a 
secure information exchange capability of the type that can be provided 
both by and to the Mount Weather PD. Pegasus has been working with them 
with the view toward providing that capability.
    The Pegasus program builds on existing technology deployment which 
significantly reduces time to deploy, training, capital and 
implementation costs, and maintenance costs. This has the added benefit 
of making it fast and cheap to deploy relative to other ``common 
software'' and ``common data center'' initiatives.
    Your colleagues in the Senate have recently made it clear that 
improved information sharing among emergency responders is essential to 
a comprehensive homeland security response. Improved information 
sharing among emergency responders is also essential to homeland 
security preparedness, as well as homeland response.
    A classic ``dual-benefit'' system, Pegasus is primarily focused on 
local agency needs, starting with local law enforcement, but also can 
serve Federal law enforcement and Homeland Security by making local 
agency data available for Federal personnel access, not extraction, in 
accordance with local agency policies. Pegasus is working with several 
federal law enforcement agencies to help them achieve their law 
enforcement information exchange mission on terms acceptable to local 
law enforcement.

WHAT PEGASUS IS NOT
    Pegasus is not a theoretical or ``ivory tower'' standards-setting 
body. Pegasus does advance and implement Federal standards like the 
Global Justice XML Data Model, which have been adopted by DHS. Most 
importantly, Pegasus is actually working in the field to implement 
Federal standards, not just discuss them.
    Pegasus does not replicate what is in place--where a regional 
information sharing system is in place which meets Pegasus security and 
other policy requirements, Pegasus works with those system's to provide 
a conduit for data to be exchanged in and out of the region.
    Pegasus does provide a nationwide, Internet based conduit by which 
local agency information in these regional systems can be accessed 
nationally, and by which local agency information outside these regions 
may be accessed by these regional systems, subject to meeting Pegasus 
security standards, in particular biometric access authentication.
    Many regional systems do not use biometrics or other strong access 
authentication technologies and processes--and we are unable to share 
with them because the Pegasus governing policy is to share only with 
systems that have biometric fingerprint access authentication 
technologies and processes in place.
    In this connection, Pegasus is working with local law enforcement 
agencies in several locations that have adopted the biometric 
fingerprint access authentication technologies and processes. These 
include agencies in Hinds, Madison and Rankin Counties, Mississippi; 
Jefferson County, Alabama and surrounding counties along Interstate 20; 
Marshall County, Iowa and surrounding counties; Linn County, Iowa and 
its police departments; Calhoun County, Michigan and surrounding 
counties; the Vermont Sheriffs' Association; and, the County Sheriffs 
of Colorado. Pegasus provides cost-effective services to these regional 
information exchange efforts. A point of discussion is that most local 
information sharing systems are being built without strong access 
authentication technologies. As a result, Pegasus security policies do 
not allow their linkage.
    Pegasus is not a data aggregator that owns local agency data, but a 
data utility that transports local agency data. Unlike some other 
initiatives, Pegasus does not push privacy boundaries or mix law 
enforcement and private sector data in powerful data mining 
technologies. Pegasus focuses on enabling traditional exchange of law 
enforcement data. The Pegasus program emphasis is on information 
exchange of traditionally collected law enforcement data and automating 
those processes.

WHAT THE PEGASUS PROGRAM DOES
    Pegasus' mission is to serve as a nationwide vehicle for local law 
enforcement and public safety data in existing legacy systems to be 
securely accessed (but not extracted) by authorized law enforcement, 
public safety and Homeland Security users at all levels of government, 
within policy and security framework approved at the local agency 
level.
    Pegasus builds local agency consensus and speaks for local-level 
agencies nationwide on data integration and data interoperability 
issues. It provides a nationwide L2L biometric fingerprint-secured law 
enforcement data communications service for agencies located in both 
rural and urban areas, ranging from Dawes County, Nebraska, with a 
population of 9,060, to Los Angeles County, California, with a 
population of over 9,800,000.
    Pegasus provides legacy database integration for local law 
enforcement agencies nationwide. This system can facilitate law 
enforcement agencies at local as well as State and Federal levels to 
access but not extract legacy data that local agencies wish to share. 
The program also provides a nationwide directory of critical contact 
information useful to local agencies; secure messaging and alerting 
capabilities that represent a secure alternative to inherently insecure 
email; services that automate exchange of information by local law 
enforcement, such as consular notifications of foreign nationals who 
have been arrested or detained; shared mapping for local agency 
location and local critical infrastructure location; and, training on 
data interoperability issues.
    The Pegasus program governance is through the Pegasus Advisory 
Board. Our policy board consists of sitting or recently-retired local 
law enforcement officials. The Pegasus Advisory Board addresses 
nationwide local-level agency policy on data interoperability issues as 
they are developed.

BACKGROUND ON LOCAL AGENCIES AND LOCAL LAW ENFORCEMENT
    As you know, under our Federal system of Government, the 
overwhelming majority of law enforcement activity is carried out by 
local law enforcement--some 14,000 local law enforcement agencies 
composed of approximately 3,100 Sheriff's Offices, led by Sheriffs who 
are typically the highest constitutionally-elected officials in most 
counties, and about 11,000 municipal police departments.
    There are some 160 large U.S. cities and counties, served by a few 
hundred large local law enforcement agencies--Sheriff's Offices and 
Police Departments--that provide law enforcement and public safety 
services to the majority of the Nation's population living and working 
in a small fraction of the Nation's landmass.
    These urban areas and their law enforcement agencies serving them 
face many challenges. When compared to non-urban law enforcement these 
large urban areas have significant resource advantages; e.g., access to 
personnel with cutting edge technology expertise, large tax bases with 
significant tax revenues, and the specially-focused Federal programs 
such as the Homeland Security Urban Area Security Initiative (UASI), 
which focuses on the needs of the largest urban areas.
    At the same time, a very significant portion of the Nation's 
population and the critical infrastructure serving the entire nation, 
including bridges and dams, interstate transportation network, 
railroads, shipping, chemical plants, pipelines, nuclear and 
conventional power plants and electric transmission facilities, are 
located in predominantly rural counties. These rural areas are served 
by more than 13,000 local law enforcement agencies--the vast majority 
of law enforcement agencies. These small police departments and 
Sheriff's Offices typically have 5 or less employees, and are located 
in small non-urban communities with a static at best or declining tax 
bases: 89.7% of local law enforcement agencies serve populations of 
less than 25,000. These municipal police departments and Sheriffs 
offices serving rural and small town America are a special focus area 
for the Pegasus Program.
    The Pegasus Program was conceived of by the Nation's Sheriffs in 
the Spring of 2000, to address their need to make their data available 
to their local law enforcement partners, in ``local-to-local 
communication''. As you know, 90% of the deputy sheriffs work for an 
office with a jail and as such, these offices are the primary source of 
information about persons arrested and detained for illegal actions, 
including criminal aliens. Sheriffs and municipal police departments 
work together daily on criminal investigations and other routine law 
enforcement matters which require secure L2L data communications 
capabilities. This kind of L2L communications is behind the explosive 
deployment of regional information sharing projects around the Nation, 
many of them ``regional stovepipes'' which do not have L2L 
communications capabilities outside their small region.
    Rural and small local agencies do not operate in isolation nor are 
they immune from the crime in the rest of the Nation. Historically, 
every major US terrorist incident has involved major direct contact 
with rural law enforcement--ranging from the 9/11 hijackers to the 
Unabomber, to the Midwest Pipe Bomber to Timothy McVeigh to Eric Robert 
Rudolph, the 1996 Atlanta Olympic Games Bomber. Currently, two of our 
Nation's more significant law enforcement challenges--methamphetamine 
and gang activity--heavily involve urban/rural interaction. Most 
methamphetamine production in the Nation takes place in rural America, 
where it can be produced without detection before being transported to 
both urban and rural areas. Similarly, gang activity, a traditionally-
urban phenomenon, is spreading from urban areas to rural areas 
throughout the Nation. Because criminal gangs from Central America, in 
particular, are ``franchising'' rural areas, the Nation's local law 
enforcement leadership in large urban areas, such as Los Angeles 
Sheriff's Department, are seeking ways to work more effectively with 
rural law enforcement to control the gang problem, and are looking to 
Pegasus and other vehicles to help solve our gang problem.
    There is a great deal of misunderstanding about where local law 
enforcement data may be found. It is well understood that most law 
enforcement activity takes place at the local agency level, and that 
most law enforcement data is generated and may be found at the local 
agency where it is generated. The twelve million plus reported crimes 
by the Uniform Crime Report data are crimes in local jurisdictions. 
Many Federal policymakers and agencies also perceive that the National 
Crime Information Center (NCIC) or the State agencies generally known 
as the ``State Crime Information Centers'' have access to all of this 
local law enforcement data: in fact, nothing could be further from the 
truth. All narrative criminal offense/incident reports and most 
misdemeanor warrants are created and reside exclusively at the 
municipal and county level--not at the State level. These records 
contain specific and actionable information of great value to law 
enforcement at all levels of government, but, in my opinion, the vast 
majority of them will never be accessible by local, State or Federal 
law enforcement except through L2L data exchange of the kind that 
Pegasus is providing.
    Enormous quantities of specific and actionable law enforcement 
data--highly useful to persons with law enforcement and homeland 
defense responsibilities at local, State and Federal levels of 
government. These records remain within local agencies and local agency 
computer systems, and are never accessed by other agencies. It is 
estimated 80-90% of local agency warrants are not reflected in the NCIC 
or State Crime Information Centers. These records not in NCIC are 
primarily misdemeanor and some felony warrants (most frequently due to 
costs to extradite). This data represents a tremendous potential 
resource for the Nation's homeland security and other Federal law 
enforcement agencies.
    There is also a major policy issue regarding Federal access to 
local law enforcement data, as opposed to unfettered Federal extraction 
of local agency data to reside in Federal databases for manipulation by 
Federal agencies. Federal access to local agency data is generally 
supported by local law enforcement, but local law enforcement data is 
solidly opposed to Federal extraction of their data, which raises 
numerous privacy and legal issues. In this connection, 42 USC 
Sec. 3789d, ``Prohibition of Federal control over State and local 
criminal justice agencies'', provides in relevant part as follows: 
``(a) Nothing in this chapter or any other Act shall be construed to 
authorize any department, agency, officer, or employee of the United 
States to exercise any direction, supervision, or control over any 
police force or any other criminal justice agency of any State or any 
political subdivision thereof.''
    The overwhelming view of local agency officials nationwide is that 
Federal extraction of local law enforcement data is a significant start 
down the slippery slope to prohibited Federal control over local 
police. The overwhelming majority of local law enforcement leaders are 
prepared to allow Federal agencies to access their data on local agency 
terms, but are not about to start down the slippery slope toward 
Federal control over local policing, which is inherent in Federal 
extraction of local agency data.
    I will now address the ambiguous usages of the term ``information 
sharing'', which means different things to different users. Most 
Federal information sharing initiatives are driven by Federal needs and 
perspectives. For most Federal information sharing initiatives, 
``information sharing'' means providing Federal information from one 
Federal agency to another Federal agency or pushing Federal data down 
to a local or State agency. Sometimes it also means providing the 
capability for local agency to push information up to a State or 
Federal user.
    As important and valid as this Federal view of ``information 
sharing'' is, local law enforcement agencies are mostly concerned about 
a very different type of L2L ``information sharing'': sharing law 
enforcement and public safety information with other agencies--mostly 
municipal police departments and Sheriff's Offices--with which they 
work on routine criminal investigative matters, some percentage of 
which carry Federal law enforcement and Homeland Security implications. 
This is the area of ``information sharing'' with which local law 
enforcement and Pegasus are most concerned. Except for Pegasus, we are 
not aware of any Federal or, for that matter, any non-Federal 
initiative which has a strategy and plan for nationwide L2L 
``information sharing.''

HOW COULD PEGASUS ASSIST THE DEPARTMENT OF HOMELAND SECURITY IN 
ACHIEVING ITS MISSIONS?
    We believe there are several opportunities.
    (1) One is The Homeland Security Information Network (HSIN), which 
serves as a nationwide vehicle for Federal Sensitive But Unclassified 
(SBU) data to be securely accessed by emergency responders and critical 
infrastructure sector users. This process occurs within policy and 
security framework approved by the Federal Government. We believe 
Pegasus can help with this mission.
    (2) The ICE Detention and Removal Office (DRO) and other DHS units 
have information which would be useful for a broad range of law 
enforcement personnel to have access to, including persons that DHS or 
local officials may not want to have access to HSIN--e.g., DRO data on 
alien criminals.
    Pegasus and HSIN staffers have discussed working together so that 
HSIN recognizes Pegasus-authenticated users. That means that Pegasus 
authenticated users will have credentials and permissions recognized by 
HSIN. Under this arrangement, Pegasus will bring to HSIN several 
thousand users in more than 30 states, many of them from rural counties 
and small agencies are added on to the HSIN first-priority areas. We 
anticipate that, should HSIN implement strong access authentication 
with biometrics for law enforcement personnel, Pegasus will recognize 
the HSIN credentials and permissions of HSIN users, as part of the HSIN 
Law Enforcement Community.

OTHER INFORMATION SHARING
    (3) Pegasus is actively facilitating the sharing of relevant and 
timely information between local law enforcement agencies in its L2L 
program. Pegasus has also briefed DHS investigative personnel who have 
indicated a strong interest in having access to a pilot project which 
would provide sophisticated and link analysis to data maintained in 
local databases along our southern borders. Pegasus has briefed a 
number of Department of Justice federal law enforcement agencies 
including the FBI and DEA and proposed providing access to local data 
especially jail records. We see relevance to this data with a pilot 
project and partnership of federal agencies with Pegasus in providing 
link analysis of these records. We have proposed partnerships with a 
pilot project utilizing federal prison records with several federal 
agencies including the FBI, DEA, ICE and DRO.
    (4) Law enforcement officials at the local level are also concerned 
about criminal enterprises, including terrorist activity being run from 
not only the federal prison population but the 3000+ local jails. To 
investigate such criminal enterprises, authorized investigators (both 
federal and local) face a daunting and time-consuming process of 
assembling jail booking records and detail call records. The Pegasus 
Program with its Pegasus Technology Consortium, believe this existing 
tool (link analysis) needs to be demonstrated through the pilot 
projects we have proposed to the above cited agencies.
    Mr. Chairman, thank you and all the committee members for allowing 
me to provide my views on L2L information sharing. We look forward to 
facilitating a growing dialogue between the Congress and local 
agencies, as Congress works to address national law enforcement and 
Homeland Security needs and the role and needs of local agencies for 
L2L data communications in that larger context.
    I will address any questions you may have. 
    [GRAPHIC] [TIFF OMITTED] 27686.001
    

                       National Law Enforcement Data Communications Networks: Functionality and Constituency Analysis (Rev.060402)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                         Constituency            Governance              Functionality            Legal Regime             Mission
--------------------------------------------------------------------------------------------------------------------------------------------------------
RISS                                Federal, State and     Authorized by          -Provision of a secure law  Intelligence          Communication and
                                     Local Law              Congress; line item    enforcement Intranet;       databases operate     information sharing
                                     Enforcement            appropriation;         secure e-mail; access to    under provisions of   among local, state,
                                                            oversight at OJP/      intelligence databases at   Criminal              and federal law
                                                            BJA; National Policy   local, state, regional,     Intelligence          enforcement
                                                            Group; Six center      federal levels; national    Systems Regulations   agencies
                                                            policy boards          gang database               (28 CFR, Part 23)
                                                                                  -RISSLeads investigative
                                                                                   bulletin board/news group
                                                                                   server for collaborative
                                                                                   law enforcement efforts
                                                                                  -On-line access to
                                                                                   RISSTraining server for
                                                                                   training materials
                                                                                   restricted to law
                                                                                   enforcement;
                                                                                   deconfliction databases;
                                                                                   EPIC clan lab database
                                                                                  -Access to law enforcement
                                                                                   publications; connection
                                                                                   to HIDTAs; utilizations
                                                                                   of XML to facilitate data
                                                                                   exchange
                                                                                  -RISSSearch--a system wide
                                                                                   search engine
--------------------------------------------------------------------------------------------------------------------------------------------------------
LEO (Law Enforce-ment Online)       Federal, State and     Joint cooperative      -LEO is the only Certified  Secure                National Secure Data
                                     Local Law              agreement between      and Accredited (C&A)        communications and    Communications
                                     Enforcement,           FBI and LSU;           Internet based system for   information           Network for
                                     Criminal Justice and   authorized by          Sensitive But               sharing. Presently,   information
                                     First Responders       Congress, funded       Unclassified (SBU)          it is not a system    sharing, distance
                                                            through OJP/BJA and    Information by the FBI      of record and         learning, and
                                                            managed by FBI         with 37,000 registered      contains no           communications for
                                                                                   users nationwide            databases under       local, state, and
                                                                                  -Secure email: LEO is a      provisions of         federal law
                                                                                   secure Virtual Private      Criminal              enforcement
                                                                                   Network (VPN) for           Intelligence          agencies and first
                                                                                   information sharing         Systems Regulations   responders.
                                                                                   between all levels of law   (28 CFR, Part 23)
                                                                                   enforcement, criminal
                                                                                   justice officials and
                                                                                   first responders
                                                                                  -Online training; Online
                                                                                   publications; Multiple
                                                                                   levels of security within
                                                                                   Special Interest Groups
                                                                                   (SIGs); Webpage services;
                                                                                   News Group Services; Real-
                                                                                   time Chat
                                                                                  -Listserv/Broadcast
                                                                                   messaging to members;
                                                                                   Used to disseminate
                                                                                   weekly FBI Intelligence
                                                                                   Bulletin as well as
                                                                                   hosting local and state
                                                                                   intelligence reports
                                                                                   within the Law
                                                                                   Enforcement Sensitive
                                                                                   Communications SIG;
                                                                                   Utilized to support all
                                                                                   criminal investigative
                                                                                   programs as well as
                                                                                   counter-terrorism and
                                                                                   homeland security matters
--------------------------------------------------------------------------------------------------------------------------------------------------------
NCIC/State CICs                     Federal, State and     DOJ/State CICs         Federally-managed National  Criminal Justice      National Felony
                                     Local Law                                     Crime Information Center    System operating      Criminal History
                                     Enforcement                                   (NCIC) linked with State-   under 28 CFR Part     Records Network
                                                                                   managed CICs for            20 and State Laws
                                                                                   accessing Felony Criminal
                                                                                   History Record Databases
--------------------------------------------------------------------------------------------------------------------------------------------------------
Pegasus Program For Local Law       Local Law Enforcement  Policy Boards          -Creates new databases and  Criminal Justice      Local Agency
 Enforcement Data-bases and          (sponsored for         composed of Local      makes existing databases    Databases operating   Database Network
 Connectivity                        Sheriffs and           Law Enforcement (NSA/  accessible by others,       under 28 CFR Part     (Non-Felony
                                     Municipal Law          Sheriffs and           nationwide (including       20 and State Public   Criminal History
                                     Enforcement)           Municipal Law          help desk services for      Records Laws; No      and other Public
                                                            Enforcement), Fire,    local agency database       Criminal              Records)
                                                            and EMS Officials,     users) for records which    Intelligence
                                                            subject to OJP/BJA     RISS, LEO and NCIC/State    Databases under 28
                                                            Oversight              CICs do not provide         CFR Part 23
                                                                                  -Creates optimal Database
                                                                                   Architecture for Local
                                                                                   Records, using XML and
                                                                                   wireless aware protocols
                                                                                   and Federally-encouraged
                                                                                   standards
                                                                                  -Enables local agency
                                                                                   database sharing by
                                                                                   providing broadband
                                                                                   Internet access and
                                                                                   computer equipment
                                                                                   linking local agency
                                                                                   databases for local level
                                                                                   information sharing by
                                                                                   Law Enforcement, Fire,
                                                                                   and EMS with local public
                                                                                   health offices,
                                                                                   hospitals, and public
                                                                                   utility, transportation,
                                                                                   and other private sector
                                                                                   entities with
                                                                                   responsibilities in
                                                                                   Critical Infrastructure
                                                                                   Protection and Homeland
                                                                                   Security
                                                                                  -Provides live training
                                                                                   and education, and
                                                                                   substantive technical
                                                                                   assistance for local
                                                                                   agencies
                                                                                  -Provides a platform for
                                                                                   bringing emergency
                                                                                   priority data
                                                                                   communications to local
                                                                                   agencies and Public Key
                                                                                   Infrastructure (``PKI'')
                                                                                   for secure and
                                                                                   authenticated information
                                                                                   sharing among local
                                                                                   agencies
--------------------------------------------------------------------------------------------------------------------------------------------------------


    Mr. Simmons. Thank you very much for that summary.
    Now, we will move to questions.
    I have a couple of questions for the panel. Let me start by 
making a comment, though, and thank Mr. Edwards for his 
testimony. Sometimes people ask me why is tribal involved in 
these issues. Of course, we have very substantial Indian tribes 
that occupy territories on our borders, and that is a pretty 
obvious example of where we need to work closely with the 
tribes.
    I will also say in my district in Eastern Connecticut, we 
have the Mashantucket Pequot and the Mohegan Tribes who operate 
the two largest casinos in the world, the two largest casinos 
in the world. We know from reading the translation of the 
Manchester, England, al-Qa'ida manual that places of amusement 
are potential targets. So it is very important when you have 
anywhere from 60,000 to 100,000 people aggregating in one place 
over 1 weekend, it is very important that the people who 
operate facilities like that be included in the system. I thank 
you for your participation.
    I would like to focus a little bit on Mr. Cohen's 
testimony. He made reference to the fact that information 
sharing is complicated by virtue of the need of people having 
clearances and the need to move classified information very, 
very carefully. That sometimes inhibits information sharing. I 
have been an advocate for many years of open source 
intelligence, that is intelligence that is produced from the 
acquisition and analysis of information that is openly 
available. Of course, the Pegasus system, I think, describes a 
mechanism for transferring those openly available data systems 
from one organization to another.
    One of the advantages of open source acquisition is that 
you are not placed in the position of being a spy. You are 
simply accessing databases that somebody else has accumulated. 
The information that you acquire and the analysis that takes 
place, takes place in an open environment where you can share 
with others. If people question your analysis, you can show the 
factual basis for the analysis.
    Are we doing enough in the area of open source intelligence 
and does this discipline lend itself to the homeland security 
mission? I would be interested in any comments you might have 
to make.
    Mr. Cohen. Thank you, Mr. Chairman.
    I think you make a very valid point. As I stated earlier, 
for me to be able to use intelligence that is produced from 
information from a variety of sources, I need to be able to 
share that information or that intelligence oftentimes with 
people who do not have clearances. Sometimes they are law 
enforcement officials. Oftentimes they are emergency management 
fire officials. They are all important parts of not only our 
response planning activities, but they are an important part of 
our ability to protect or mitigate the risks to specific 
targets.
    So we need to have an intelligence sharing environment that 
allows us to take that intelligence and share it with as many 
people as possible who are involved in our homeland security-
related activities.
    Right now, there is sort of a conflict, however. There is a 
conflict between some in the federal system, and quite frankly 
there is a disconnect by some at the state and local level. At 
the state and local level, there are still a great number of 
people who believe, if I only had my security clearance, I 
would see the magic. I would see the unicorn. The sun would 
come through the trees and I would have a full understanding of 
those threats which we face.
    I think there is an education process that is necessary to 
train these state and local folks and tribal folks that the 
magic panacea does not lie with a security clearance; that 
there is important information, critical information that is 
not classified, that can be accumulated through open source-
related activities, and that it is much more important to put 
in place an effective process of gathering analysis, 
dissemination and use and re-evaluation than necessarily having 
a security clearance.
    Within the federal side of the house, I think there is 
still a debate over whether we should continue the practices of 
the Cold War era and try to classify as much as possible, and 
then provide clearances to people at the state and local level 
and let those people in on the secrets. In contrast, there are 
those at the federal level, and DHS has been a real champion of 
this in many respects, of saying no, we need to take this 
information. We have to put it into an unclassified format. We 
have to blend it with other information that is taken from open 
source and taken from state and local sources, and we need to 
get that finished product to state and locals so it can become 
part of their planning efforts.
    So I would agree with you. I think the vast majority of 
state and local officials would also agree with you, the more 
open the better.
    Mr. Simmons. Thank you very much.
    Any other comments from the panel? You do not have to if 
you do not want to.
    Mr. Colwell. Mr. Chairman?
    Mr. Simmons. Yes, Mr. Colwell.
    Mr. Colwell. I would add to the comments and support the 
comments made. I would make a couple of observations. I do not 
believe that local law enforcement, meaning the county sheriff 
and the municipal police department, want every piece of 
information. They want those items that are specific and 
actionable so that they can tell their officers what they need 
to know and what needs to be done. They are not talking about 
classified information.
    I am aware that there is a major initiative by my former 
organization, the FBI, to present information in an 
unclassified version at the outset, if it is significant 
information and contains specific and actionable information, 
then they are trying to do that. They are not there yet, but 
the point is the attitude and the willingness and the will to 
do it is there. But on the other hand, there is not a demand 
for that information because there is a lot of information that 
all of us do not need to know. The question is whether I can do 
something about it.
    Thank you.
    Mr. Simmons. Thank you for those comments.
    The chair now recognizes the distinguished ranking member 
of the full committee, Mr. Thompson, for questions.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I appreciate the testimony of all the witnesses.
    Dr. Colwell, I live in a community of 500 people, just west 
of your operation. How would a rural community relate to this 
intelligence gathering network? And how would that information 
be delivered? And what would be the backbone for a system like 
that so that we would make sure that the right information is 
getting to a community of that size?
    Mr. Colwell. There are a number of communication links 
where that can occur and is occurring in varying degrees of 
accuracy and success. So permit me, if you will, to just speak 
about the Pegasus program. It links databases that are resident 
in those small communities and permits them to share 
information. Built in with that is a secure system of 
notification to communities. The non-law enforcement portion of 
those communications that does not involve investigations of 
individuals or involve privacy issues could be linked to a 
mayor's office even in a small community of 500, where there is 
a need to know that.
    I think that overall there is an effort being made to 
address that. A lot of progress has been made, but there is a 
huge amount of work yet to be done. The Pegasus program, with 
the information alerts to the law enforcement agency, whether 
it is a chief of police or a sheriff, can get information to 
those areas, unlike any other. It is economically feasible with 
a project like the Pegasus because of the use of the Internet. 
Anyone who has a computer can, with pre-authentication and 
validation, can subscribe to that or participate in that.
    Mr. Thompson. Thank you very much.
    Mr. Cohen, you have heard a description of a system like 
that. What do we have available to state and local law 
enforcement people at this present time?
    Mr. Cohen. Congressman, there are a variety of mechanisms 
that are out there.
    I think one that we are looking at in Massachusetts very 
strongly at is the Homeland Security Information Network that 
is being provided to us by the Department of Homeland Security. 
We are going to put it in every local community, even those in 
the rural areas. We are going to accompany its deployment with 
a training program for all of our communities so we can tell 
people, whether they are rural police officers or firefighters 
or someone inspecting the tracks on our transit and rail 
infrastructure, what they should be looking for, how they 
should report it, how to use the system.
    The system will link into our statewide fusion center. It 
will provide feedback back to those rural communities that 
provide us the information and intelligence. Then it also gives 
us a way to communicate with our Joint Terrorism Task Force and 
the HSOC.
    Mr. Thompson. But at this moment, we do not have a system.
    Mr. Cohen. Right. At this moment we depend on a variety of 
processes, whether it is telephone calls, faxes, using email 
systems. We have a system we call Saturn in Massachusetts, but 
it is one-directional. We can send information out. We have to 
have people call us back with additional information.
    Mr. Thompson. Dr. Colwell, do you want to make a comment?
    Mr. Colwell. Yes. In meeting with Homeland Security 
officials yesterday, I believe their plans calls for the 
creation of 2000 sites in the next 2 years. My understanding is 
that it will not go to the specific, you know, the 500-member 
community unless there is a compelling reason to put it there 
due to critical infrastructure presence or some extenuating 
circumstance. The point is, as Mr. Cohen mentioned, they are in 
the process of doing that and it just takes a little time.
    Mr. Thompson. I think it is important, and that we 
encourage the department to move forward because obviously this 
is a vulnerability from the standpoint of intelligence.
    If I might, I would like to ask Mr. Edwards, to your 
information, are Indian tribes plugged into the intelligence 
network so that you can receive information on any homeland 
security-related activities?
    Mr. Edwards. For the most part, no. There are some 
departments that are some of the top in the country that are 
connected, but they are connected through cross-deputization 
and other user agreements. Most of Indian Country, the majority 
of the 562 federally recognized tribes, do not have access to 
the information, and many times they do not have a way to give 
information that they see or hear in their communities.
    Mr. Thompson. Thank you.
    Mr. King. [Presiding.] Thank you, Mr. Thompson.
    Chairman Simmons has left the chair for approximately 10 or 
15 minutes, and I will be sitting in his place for that time.
    I would like to ask Mr. Cohen the question, then, and 
either of the other two gentleman certainly are encouraged to 
add anything they want to it. Really, it is a two-part 
question.
    One is, if you could just give me the chain of command or 
exactly what happens when you arrive in the office in the 
morning. Who in Washington would be giving you intelligence? 
You mentioned Homeland Security, but also you said other 
agencies and departments also feed you information. Some of it 
is useful and some of it is not. You also, I believe, said that 
some of it is conflicting. Some information you get says it is 
deemed not to be credible, but it is given to you anyway.
    If you could just lay out the process as to who gives you 
information, where you look for it, who gives it to you outside 
of Homeland Security from the federal government? Does FBI 
information come separate or does that go through Homeland 
Security?
    Then as an add-on to that, I think it flows, you mentioned 
a number of problems that still exist as far as the flow of 
information. Can you just give a general thematic answer to 
that? Are those problems decreasing? Is the system getting 
better? Or do you think the problems are locked in place?
    Thank you.
    Mr. Cohen. Thank you, Congressman. May I answer your second 
question first?
    Mr. King. Surely, yes.
    Mr. Cohen. Because I was getting a red light, and I would 
have gone into this in my general testimony.
    Things are getting better. The Department of Homeland 
Security, the FBI, the Justice Department are working very 
closely with us at the state and local level and the tribal 
level to begin working through some of these issues.
    We had a meeting yesterday, in fact, a combined meeting of 
the Homeland Security Advisory Council Working Group on 
Intelligence and Information Sharing, with the Global Justice 
Information Sharing Working Group. It was attended by folks 
from the FBI, from the Justice Department, from DHS, and people 
outside of the law enforcement community.
    We are thinking through not just how do we share 
information and intelligence more effectively between law 
enforcement, but also how do we bring in the other disciplines 
that are critical, both as consumers and gatherers of 
information.
    So there is a lot of progress. DHS has been working very 
aggressively with us to fix these problems. They recognize that 
there are some challenges. Secretary Chertoff really seems to 
get it from the perspective the state and locals are a key 
partner. So we are at the table. We are working together. 
Things are getting better.
    From the standpoint of your first question, that is a great 
question because my day usually begins with me calling the 
Department of Homeland Security, at least most days, just to 
see what is going on on a general basis. They are very good 
about sending out a morning operation report, which I look at. 
There are other reports that come to me from a variety of other 
sources such as TSA, FAA, the information sharing advisory 
committees for the different industry sectors.
    At the same time, I check with our state police to see if 
our folks assigned to the JTTF, the Joint Terrorism Task Force, 
have anything on the horizon. I then make a call to the U.S. 
Attorney's office in Massachusetts to see if they have anything 
that they are looking at. If I see anything that causes me the 
least bit of concern, I then begin calling around to some of my 
colleagues in the FBI, in the Department of Homeland Security, 
and other parts of the intelligence community to see if they 
have any additional information.
    In fact, when we had our situation in January where there 
was some concern about potential folks coming cross the 
Southwest border, coming to Boston with a potential dirty bomb, 
a good part of my morning was calling a variety of folks that I 
have developed strong relationships with here in Washington and 
in other states around the country at the federal, state and 
local level to see what I could find out they knew about the 
situation. I usually go through that process, sometimes in an 
expedited manner, before I do my briefing for the governor or 
for the secretary of public safety.
    So the answer to your question is, every morning I am 
pinging my sources to see what they are hearing and what is 
going on. If I hear something that causes me concern, I then 
begin an aggressive effort to talk to pretty much everyone I 
can think of to see what they know about the situation that is 
concerning me.
    Mr. King. Who is responsible for the reverse part of the 
process as far as local intelligence going to Washington? Does 
that go through you or the local police chiefs on their own? 
How is that coordinated?
    Mr. Cohen. In Massachusetts, we have now established a 
statewide fusion center. They will do part of the process of 
what I just described earlier as far as checking each morning 
what is going on and put out a report that I would look at, 
instead of me making the phone calls. In our state, and this is 
being replicated in a number of states, local jurisdictions who 
want to report up can report directly to the HSOC through a 
variety of channels, the Homeland Security Operations Center. 
At the same time, what we are asking them to do is to send it 
to us and the JTTF directly.
    That is when there is a clear nexus with terrorism. For the 
most part, much of the information we are getting from 
localities, maybe reports of suspicious circumstances where 
they do not know if it is terrorism-related or not, or maybe 
just general crime information, because it is through the 
analysis of that general crime information, when we blend that 
with the intelligence we get from DHS, we are able to identify 
patterns and trends that may reflect a threat.
    Mr. King. Mr. Edwards or Dr. Colwell, do you have any 
comments?
    Mr. Colwell. I do. Thank you, Mr. Chairman.
    I think, number one, I support the answers that Mr. Cohen 
gave and their accuracy. But I think when good questions, 
important questions like that are asked, it is important to put 
them in context.
    There are 87 joint terrorism task forces in the United 
States. That is expected to grow to about 167. There are, 
depending on your definition, 53 to 57 major cities in the 
United States. So, much of the initiative and effort and 
challenge of the federal law enforcement community in a state 
is directed at where the population densities are.
    When a question like that is asked and answered accurately 
and appropriately, it is in that context of what we are talking 
about, not out in these many, many 22,000-some odd 
municipalities around the country and 3,109 counties that 
serve, for the most part, small populations.
    Thank you.
    Mr. King. The gentleman from North Carolina, Mr. Etheridge?
    Mr. Etheridge. Thank you, Mr. Chairman.
    As you know, we have been talking a lot about the role of 
first responders and law enforcement and others, and of course 
you just touched on it a little bit, simply because we are a 
big country and terrorists do not determine where they are 
going to come in except where the soft spots are. It seems to 
me that is a soft spot that we have to find a way at a minimum 
to help plug.
    Let me go back to one of the questions that was asked 
earlier, because a 2003 GAO report reports that local officials 
said that they did not receive timely and pertinent 
information. You have alluded to some of that, that we are 
making progress, from the Homeland Security or from the federal 
government, for that matter, in general terms overall. I must 
say to you, the first responders from my district tell me the 
same thing today that they did in this report.
    I would like to know from a generic standpoint, Mr. Cohen 
and each one of you, if you would touch on it, yes, we are 
making progress, but it has been a long time. We have spent a 
lot of money. And to get there, it seems to me, number one, you 
have to have a plan. And number two, you have to work the plan. 
And number three, whether it is terrorism or just out and out 
pure crime, we may be looking for terrorists, but we ought to 
be looking for the criminals first, because it seems to me that 
is where it starts. These are criminals. They are international 
criminals. If we get our focus in the wrong place and look for 
the big stuff, we are going to miss all of the opportunities to 
get the job done.
    So I hope you will touch on that, because it seems to me it 
does not matter whether it happens in isolated Iowa or North 
Carolina, it has the same problem in the long run.
    Mr. Cohen. Congressman, you have made some very important 
points.
    The first point that I would like to talk a little bit 
about is the connection between terrorism and crime. In the 
state and local community, you are starting to hear about the 
all-hazards, all-crime approach to the intelligence process. 
That is critically important because terrorist do not come into 
this country and hide in a hotel room waiting for the day of 
their attack, and then suddenly come out.
    They are involved in a whole host of activities, planning 
activities and pre-operational activities, many of which are 
illegal. They are involved in cigarette smuggling. They are 
involved in document fraud. They are involved in money 
laundering. They are involved in drug trafficking. They are 
involved in weapons trafficking. They are conducting 
surveillance activities. They are doing things that rise to the 
attention of local officials, either through crime 
investigations or reports being made to those state and local 
officials.
    We should not be putting our state and local officials in 
the position of having to figure out when is something 
terrorism-related and who should they report it to. We should 
be putting place a system that regardless of who they report it 
to, it gets to the right place so it can be analyzed and put 
into the national analytical mix.
    You are right, there has been no plan for prevention and 
intelligence sharing up to this point, but we have been working 
aggressively, particularly over the last 6 to 9 months with the 
Department of Homeland Security, with the White House, with the 
Department of Justice, to think through these issues. With the 
passage of the Intel Reform Act, the creation of the Project 
Managers Office to begin the design of the information sharing 
environment, that provides an excellent opportunity to create 
the environment that you just talked about as badly needed.
    Part of the other reason why we have not made more 
progress, I truly believe, is because I do not think 
consistently across the board at the federal level there has 
really been a true understanding of the value that state and 
locals bring. I think for the most part, state and locals were 
viewed simply, in the early days after September 11, as folks 
who responded after the attack occurred, which required a 
certain type of intelligence and information sharing. I think 
there is a growing level of sophistication that no, wait a 
minute, state and locals and tribal governments are important 
from a prevention perspective.
    But it goes beyond that. Prevention is more than just 
conducting investigations. Prevention includes identifying at-
risk locations, mitigating the risks to those locations. It 
means disrupting the environment so they cannot plan and carry 
out their operations. That requires a whole host of activities 
at the state and local level. While a growing number of 
officials are beginning to understand that at the federal 
level, not everybody does yet, and that is a problem.
    Mr. Etheridge. Before we run out of time, I hope somebody 
will touch on this one too. Has a lack of leadership at the 
federal level up to this point created an informal network that 
has always been out there in law enforcement, that is growing 
and allowing for information to be shared?
    Mr. Edwards. From the tribal perspective, that is certainly 
true, and DHS is leading the way. When you look at the NIMS and 
the NRP, anywhere you see federal, state and local, you see 
tribal. So we have actually been given a seat at the table, so 
therefore when we begin to talk and we begin to exchange 
information and see each other at exercises, we are beginning 
to establish that personal relationship. So yes, it is.
    And when we look at the national preparedness goal and the 
critical task list and the universal task list, then we are 
beginning to come together with a lot of things that we were 
just doing in the regular routine parts of our job that now 
have true meaning based on that strategy.
    Mr. Colwell. Congressman, the things that have changed in 
my view--and I am talking about in the context of primarily 
non-urban, small town, rural America, where Interstate highways 
go through and trains and hazardous materials and waterways and 
water reservoirs, electrical grids and so forth exist--what has 
changed there is an understanding that they are part of a 
holistic approach to homeland security.
    What is needed, and to a certain degree many efforts have 
been made to accomplish this, it is just hard to define what 
should you be on the lookout for at the local level?
    When I say ``local,'' it is different than what Mr. Cohen 
says. When I say ``local,'' I mean outside the urban areas 
where the majority of our population lives.
    It is an integral part of any holistic approach to homeland 
security. They are using computers more. Many of them still do 
not have computers, and they need the database links which are 
being provided. A lot of progress has been made and there is a 
lot of work left to be done.
    Mr. Cohen. Congressman, can I just make one quick point?
    I am not really sure why Mr. Colwell indicated that I am 
not referring when I say ``local'' rural communities. I think 
once you do the type of intelligence analysis that we are 
talking about, blending state, local, federal intelligence 
community information, you learn how these organizations 
operate. You then see how through those operations local 
communities are involved. You then can train those rural police 
officers, those rural firefighters what they need to be 
prepared for and what they should be looking for.
    So when I say ``local,'' I mean urban, I mean rural, I mean 
suburban, I mean local.
    Mr. King. The gentleman from Pennsylvania, Mr. Dent?
    Mr. Dent. Thank you, Mr. Chairman.
    My question will be directed to Mr. Cohen.
    The Homeland Security Information Network and the Joint 
Regional Information Exchange System, the is an issue that has 
been created in my state's Homeland Security Office. I was just 
curious if you were part of that pilot effort in your State of 
Massachusetts?
    Mr. Cohen. Yes, Congressman. The commonwealth is working 
closely with the Department of Homeland Security to do a 
statewide rollout of HSI and how we will be rolling it out as 
we will be putting a capacity or providing access to each 
locality, rural, suburban, urban, throughout the commonwealth, 
and routing that information both on a regional basis and on a 
statewide basis.
    So as information rolls out and as information comes in or 
is put in, it will be routed to other regional entities of 
relevance as defined by our planning regions into our state 
fusion center and then to DHS and the FBI.
    Mr. Dent. Has your experience in that program been useful 
and helpful? In my state, there has been some concern. I know 
some of the stakeholders, I believe, has disengaged from that 
process. Can you just give me your perspective?
    Mr. Cohen. HSIN and the JRIES system have gone through some 
growing pains. I think the initial deployment of what was 
called at that point JRIES, there were some issues. I think it 
grew faster than they were prepared for and the technology 
could support. I think there was some frustration that came 
from that.
    As they migrated JRIES over to the Homeland Security 
Information Network, to more of a portal-based system or an 
Internet-based system, I think that the capacity of the system 
has increased. So far, DHS, we have no complaints with how DHS 
has worked with us in the deployment of the pilot project. They 
have been attentive. They have been responsive to what we have 
talked about, and we are looking forward to deploying it.
    Mr. Dent. Is your state currently exploring their own 
information sharing network, outside of the JRIES and HSIN 
system?
    Mr. Cohen. Yes. We are looking at integrating our HSIN in 
deployment with the deployment of a statewide information 
management system that is going to be run out of our fusion 
center. And then we are also looking to leverage our Health 
Alert Network.
    Mr. Dent. Would that be outside the JRIES system?
    Mr. Cohen. It is a separate system, but they are all going 
to be integrated and fused together.
    Mr. Dent. Okay. Thank you.
    Does anybody else want to comment on that? Okay.
    Thank you. No further questions.
    Mr. King. Thank you, Mr. Dent.
    The gentleman from Rhode Island, Mr. Langevin?
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, I want to thank you for your testimony today.
    Similar to the question that Mr. Dent was just asking, I 
guess I wanted to start and just go to Mr. Colwell for a 
second. I know there are several information sharing systems 
out there. There is RISS, which I am very familiar with. I know 
there is HSIN.
    Mr. Colwell, can you compare and contrast a little bit the 
Pegasus system with some of these others? To what degree are we 
reinventing the wheel and to what degree do you think it is 
possible that we can have just one information sharing system 
that everybody can get behind? It seems like there is a lot of 
duplication of effort out there.
    Mr. Colwell. Congressman, I believe that you referred to 
RISS. That is a criminal intelligence network system.
    Mr. Langevin. I bring that up because--
    Mr. Colwell. And the Pegasus program is--
    Mr. Langevin. --it is something we can build onto, which is 
what HSIN is.
    Mr. Colwell. The links, the communication links could be, 
and in many instances are coordinated, consolidated. The FBI 
has a LEO system and it is highly specialized and 
compartmented. All of them have great attributes, including the 
Pegasus program. The Pegasus program just links existing data 
and makes no attempt to interpret it or analyze it, so we are 
not in the intelligence business.
    With the chairman's permission, I could submit for the 
record a written comparison of the systems. It would be quite 
instructive.
    Mr. King. Without objection, so ordered.
    Mr. Colwell. I might add that those descriptions on that 
comparison that I will submit is about 2 years old and the 
narratives in that description were submitted by each of the 
entities that are mentioned. They describe themselves. Pegasus 
did not describe them. I will submit it for the record.
    Mr. Langevin. Would either of you gentlemen like to 
comment?
    Mr. Cohen. You know, Congressman, this is actually an issue 
that the working group that the governor chairs looked at.
    There are a variety of systems. You have RISS, RISS-Net, 
LEO, Law Enforcement Online. You have the CDC's Health Alert 
Network. All of them are used to communicate certain 
subcomponents or information that could have a homeland 
security relationship.
    I think we looked at the issue sort of two ways. One, the 
working group came out and said we want a single conduit coming 
from the federal government for threat-related information and 
intelligence. So if you are going to send to us terrorism-
related or homeland security-related threat intelligence, pick 
a conduit, whether it is HSIN, LEO, RISS. Pick one.
    On the other hand, we recognized that all of those systems 
that you have described or that we have been talking about play 
an important role in activities outside of those which are 
clearly identified as being terrorism related. So they are 
important. They need to be maintained because they support 
other activities that we need to be involved in each and every 
day.
    So therefore, pick one to communicate threat intelligence; 
keep the other ones in place because they are valuable tools, 
don't make those the mechanism in which you are sharing defined 
threat-related intelligence.
    Mr. Edwards. I think from the tribal and very rural law 
enforcement entities, and most law enforcement departments 
across the country, you know, 92 percent are less than 50 
people in the department, and I think maybe 80-some percent of 
that 92 percent have less than 25. Many times, the problem is 
we do not have the equipment, the technology, the training, the 
personnel to be able to even access these information systems 
that are out there. So that is our first step, is just to get 
connectivity.
    Mr. Langevin. And on the issue of information sharing, I 
know you touched on this in some of your testimony already, but 
more specifically if you can expand upon it. In an August 2003 
report, the GAO reported that local officials routinely 
complained that the homeland security information they received 
was not timely.
    For example, police chiefs reported that they often 
received critical homeland security information at the same 
time that the public received it. The chiefs blame the federal 
government's historical reluctance to share this type of 
information with local officials.
    Can you discuss more fully what changes you have seen or 
witnessed in this culture, if you will, and what can be done to 
undo this historical reluctance to reach out to local 
officials? This reluctance clearly would place our first 
responders and our citizens at risk.
    Mr. Cohen, you can start.
    Mr. Cohen. I think there are a couple of issues there, 
Congressman. I think one issue, as an outside observer, but 
someone looking in, I think there is a pretty unwieldy process 
that takes place at the federal level as far as clearing and 
vetting intelligence that comes down to the state and local 
level. I think at times that process in itself may be part of 
the issue.
    But I think there is a bigger issue, and the bigger issue 
is depending on where that intelligence resides, depending on 
what department, there may be separate systems or disclosure 
protocols that are in place. Here is an example. If the 
information or intelligence that is threat-related comes as a 
result of an ongoing JTTF investigation, and the communication 
of it to Boston, say, comes from a JTTF office in California to 
the JTTF office in Boston, the culture has changed dramatically 
as far as the FBI sharing that information with state and 
locals, but they share it with state and locals that are 
involved in the JTTF and involved in that criminal 
investigation or that terrorism investigation.
    There is nothing wrong with that. That is really important. 
But at the same time they are sharing it with the other law 
enforcement entities, there is oftentimes a cultural reluctance 
to share it with those who are outside of the investigation. 
Now, I have been a law enforcement person for 21 years in 
different functions. Even though my current job is not strictly 
a law enforcement job, but I may need portions of that 
information or intelligence that is maintained by the JTTF to 
do some very important threat mitigation and planning 
activities.
    So part of the issue is is that we have to develop a 
process that without compromising intelligence operations or 
law enforcement operations, information is shared outside of 
the investigative circle so that planning and protection 
activities can take place by those who are involved with it.
    Mr. Langevin. Does the other gentleman want to comment?
    Mr. Colwell. One of the things that is occurring now that 
did not exist previously, and I would add that there is a lot 
of progress that is not seen and noted that has been made since 
the GAO report in 2003. But one of the things that is 
occurring, there are some databases that are now accessible 
that were not accessible before to make inquiries of 
information at the non-urban area.
    Mr. Langevin. Thank you very much for your testimony. It is 
obviously clear we are making progress, but I still get the 
sense that we are in this mode of need to know versus need to 
share. We need to be ever-vigilant in changing that culture. So 
thank you very much.
    Mr. King. Go ahead.
    Mr. Colwell. One footnote, Mr. Chairman. A lot of the 
technology that existed in the past was there, is being 
utilized to a more appropriate level. For example, the Pegasus 
program uses a priority software that overrides any other 
communication if it is from one law enforcement agency to 
another, which is an advance that was not commonly used in the 
past.
    Mr. Langevin. Thank you.
    Mr. King. The gentleman from the state of Washington, 
Sheriff Reichert?
    Mr. Reichert. Thank you, Mr. Chairman.
    You said ``Sheriff Reichert.'' I was the sheriff in 
Seattle, King County, Washington, for the last 8 years. I 
started out in a police car 33 years ago at 21 years old. So 
thank you for that honor, Mr. Chairman.
    I have a question. It always boils down to me, at least for 
the last few years after September 11, and I have had a lot of 
experience in dealing with federal agencies, as you might 
imagine, over my 33 years. In this post-9/11 world that we live 
in, the gathering of information, the analysis of information, 
and the sharing of information really are the three key pieces 
to this puzzle.
    There are a lot of initiatives out there. The integration 
initiative that was just recently announced by the Department 
of Homeland Security, which $10 million and four cities have 
been identified across the nation. Seattle, King County is one 
of those chosen to participate.
    Promises about local help are--I should say federal dollars 
in helping the locals construct a system where we can actually 
have first-hand, real-time information on the street for the 
people in the police cars, it is not happening. Difficulties 
with the U.S. Attorney's office in being a partner. Actually, 
the U.S. Attorney's office in Seattle has really stepped 
forward. The FBI at first would not participate because they 
did not want to share certain information.
    So I guess my concern is that there are two--to help us get 
to the gathering, analysis and the sharing, local cops need 
help in funding personnel. We are supplying people to the 
federal task forces, to the joint analytical centers, and to 
the Joint Terrorism Task Force out of our own budget.
    I think the Department of Homeland Security, I would hope, 
would take a close look at funding, and I know it has been 
their policy not to, funding bodies to help us in that area.
    Can you comment on that, Mr. Cohen, first, and then others?
    Mr. Cohen. Congressman, when you mentioned patrol cars, 
there is not a day that goes by that I do not wish that I am 
back to driving a patrol car. Life was a lot simpler back then.
    I think you raise a very intriguing issue because on the 
one hand I think there are a lot of folks who will acknowledge 
that the frontlines on our homeland security efforts and our 
global terrorism efforts are the police officers that work at 
the local level, whether it is in a rural community or an urban 
community.
    At the same time that we are asking them to take on more, 
raise their level of sophistication, increase their awareness 
about terrorism, they are still required to handle their day-
to-day jobs, handling bank robberies, drug traffickers, 
arresting prostitutes, handling burglary reports.
    At the same time, most local communities are dealing with 
pretty severe budget issues. So we are losing police officers 
and firefighters, at the same time relying on them more to 
protect our communities from future terrorist attacks.
    So yes, I think you raise a very valid issue and it is 
something we need to figure out because on the one hand, by 
asking them to do more, but on the other hand, as we saw with 
London, it is going to be those activities that probably 
provide our greatest chance at stopping the next attack. The 
next attack may not come from someone coming from abroad. It 
may come from someone who was born and raised in this country, 
who lived in the local community, and conducted all their 
planning activities in that local community or in that region 
prior to the attack.
    At the same time, I do not know how you balance the fact 
that confronting terrorism is now part of what we do on a day-
to-day basis from a state and local perspective. It means that 
we need to change the way we do business to take that into 
account.
    So I think you raise a very valid point. There is 
definitely a resource issue from the standpoint of how can we 
be losing police officers and firefighters at a time when we 
need them more than ever, and at the same time there is how do 
we integrate this into their day-to-day business.
    Mr. Edwards. I totally agree with what John is saying. I 
think one thing that we are really missing is the law 
enforcement officers that are on the street, particularly in 
the rural areas, being able to gather that information and know 
what information to gather, and feel comfortable in the 
environment that they are gathering it in, and feel like once 
they have put it forward, that they are getting some 
information back.
    I think that is why you see the popularity of the state 
fusion centers, and the coming together there. I do think that 
we are making progress. We need not just personnel, but 
technical assistance, high-speed hookups. A lot of the local 
police departments say, well, it takes me maybe 10 minutes to 
download one information report or bulletin because I have a 
slow-speed dialup. These are things that we have to address at 
the local level and I think we could do that with a reasonable 
amount of funding to get people connected first, and then teach 
them what we need together, second.
    Mr. Reichert. Thank you, Mr. Chairman.
    Mr. King. Thank you, Congressman Reichert.
    The gentlelady from Texas, Ms. Jackson-Lee?
    Ms. Jackson-Lee. Thank you, Mr. Chairman, for your kindness 
and indulgence.
    I thank the ranking member and the committee, and I thank 
the panelists for their service. Many of us come from local 
government and understand the importance of your work.
    Let me just, if I might, read a paragraph into the record, 
``From Hometown Security to Homeland Security.'' This was 
prepared by some good friends of mine, the International 
Association of Chiefs of Police. I think it is important 
because, Mr. Cohen, I think you have made it eloquently, as I 
have been here, and I know that Mr. Edwards and certainly Dr. 
Colwell has made it very clear, law enforcement efforts to 
combat terrorism did not begin on September 11, 2001.
    For decades prior to that fateful day, law enforcement 
agencies throughout Europe, Asia, Central and South America, 
and the Middle East and the United States were engaged in daily 
battles to apprehend terrorists and keep their communities safe 
from harm.
    Of course, this does not have the United States, but I know 
that the work that many in law enforcement were doing certainly 
was in tune with potential danger or threats to the United 
States within their local communities.
    I think it is important to put this on the record. This is 
a document prepared by the chiefs of police and seemingly was 
provided to us by the Democratic staff.
    Mr. King. Without objection, it will be made part of the 
record.
    Ms. Jackson-Lee. I thank the distinguished chairman.
    That is the line of questioning that I would like to 
proceed with. Let me give you a little background for that.
    Many of us on this committee, and some of us were on the 
Select Committee on Homeland Community, kept talking about the 
question of sharing of intelligence. I think we can be 
reminded, aside from some of the tendencies and the fear after 
9/11 to stereotype, to racially profile, to suggest it was a 
particular religion or ethnic group. I kept saying, one, we 
should keep level heads, even in the midst of the enormous 
tragedy, and look at what happened. We can track it down to the 
issue of intelligence, sharing of intelligence.
    We are reminded of the young FBI agent way out west, who 
had a document on her desk about an individual who was learning 
to fly without learning to land. That information did not 
translate, and Mr. Cohen I think I heard you mention the FBI, 
or the sheriff mentioned the FBI. They have made great strides 
now, but it did not get translated. It was not where it needed 
to be, the sharing of intelligence. I cannot imagine a more 
important point for this hearing today.
    I will just lead into a question with this comment. On 
Monday, I was with, and Dr. Colwell, you mentioned rural 
communities. There are rural communities inside urban areas, 
and I happen to represent that kind of area in Houston where 
you can have a big city, but you go to areas that are not 
connected, if you will; 24,000 people in the Fifth Ward. But a 
very innovative nonprofit has established, with a homeland 
security grant or an appropriations that we secured, to put in 
a Web site in that community at a major place. One of the Web 
sites would include access to first responders information in 
time of, unfortunately, a crisis.
    Interestingly enough, when it was reported, we know the 
bloggers are out there. BlogHouston.com reported and said, I do 
not understand what they are talking about. Everybody is always 
talking about safety. Here is another project that has the word 
``safety'' in it. What does it mean?
    So here is, you know, the smart bloggers could not 
understand that hooking up or putting technology or information 
sharing in a community to be able to understand what is going 
on a few miles down the road in downtown Houston, maybe there 
is some threat; maybe a chemical plant has exploded, did not 
understand it, could not make sense out of it, which shows that 
we are not educating and securing the hometown.
    So I would like to ask Mr. Cohen on this progress that we 
may or may not have made in respect to this area, and I will 
ask Mr. Edwards as well. You come from an area where you know 
well the goodness of the Minutemen, but obviously they have 
taken on another name. I think primarily because of the 
frustration on some issues, but also they have gone to suggest 
that they will be at both the northern and southern border.
    What kind of informational access is important for you to 
have in order to make the point that you have it under control, 
and that the volunteers that we had in the revolution may not 
be needed at this time because you have the local support and 
state support that you need.
    Mr. King. If I could just ask the witnesses to try to 
expedite their answers because we do have two more questioners 
and we have another panel following it, and we have to be out 
of the room by 1 o'clock.
    Mr. Cohen. Okay. Thank you, Mr. Chairman.
    Congresswoman, what I need to know to do my job is I need 
to know as best as possible what individuals and organizations 
want to carry out attacks in the United States and of those 
organizations, which ones have the capacity to do it. I need to 
know how they operate, how they plan, how they structure their 
communications and transportation networks. I need to know what 
type of targets they want to attack, and I need to know how 
they want to do it. I need to know whether to invest my money 
in protecting against a thermonuclear bomb going off or someone 
trying to blow up an LNG tanker.
    I think to your point, and you make an excellent point, is 
that if we do not have this type of intelligence, we have to 
rely on conjecture. If we rely on conjecture, then that is how 
racial prejudices creep into what we are doing. I think the 
vast majority of people involved in counterterrorism activities 
truly want to stop the terrorists from attacking our country. 
But if we do not give them the information to do it 
effectively, then that is when you are going to see people's 
civil liberties, privacy, and you are going to see racial 
discrimination enter into what we are doing.
    Ms. Jackson-Lee. Mr. Edwards, and, Mr. Colwell, if you 
would as well.
    Mr. Edwards. Native American people have been practicing 
homeland security since 1492.
    [Laughter.]
    And you all will be relieved that we are still on the job 
today.
    Ms. Jackson-Lee. You are.
    Mr. Edwards. We are still watching. Just like in World War 
II, we had a tribe from the Seattle area go out into the ocean 
in their canoes to spot German submarines off the coast. Now, 
what would we have done with the information that we got? We 
did not have any connectivity, but we would have fought to the 
death defending the country.
    We are almost in the same shape today on our borders. We 
are there. We are watching. We are vigilant. We are American 
citizens. We want to protect our country. We want to protect 
our freedom, but we need the tools to finish the job.
    Ms. Jackson-Lee. Mr. Colwell, and I know that yours is on 
information sharing, you might emphasize that, but the 
importance of what you are focusing on in terms of that local-
to-local information sharing.
    Mr. Colwell. Thank you.
    I think I agree with my colleague here. I want to state 
that there is a massive effort going on at the federal level in 
the midst of huge reorganization initiatives, homeland 
security; change of mission for the FBI; and also attempts to 
clarify what the threat is. I think more than anything else, 
the small towns and the rural, as well as the major cities, 
need clarity of the threats so they can take the risks that 
exist in that community and they will have a better idea of 
what they need to do to prepare themselves.
    My view is that the preparedness for this also has to occur 
at the local level in addition to the initiatives that are 
being carried on by the federal government. But there is a lot 
of progress that has been made in sharing information, but 
there is a lot of work left to be done. It is a long, 
unidentified and unmet need, but it is now an imperative that 
this occur.
    My view is that the more informed our local law 
enforcement, and when I say ``local,'' outside the major 
metropolitan areas. The more informed they are, the more they 
will be responsible, and they will contribute in meaningful 
ways to our national security.
    One last thing, crime has always been local. Even with 
terrorist events, it is still local crime in that, although 
there are federal laws and state laws. The local crime that 
occurs still goes on, still the same volume. The jails are 
still full, unfortunately, and the added burden of homeland 
security calls for extra resources and demands, but the local 
crime continues. It is just a question of clarity and helping 
give information so that people can act on their own and their 
own initiative in the context of homeland security.
    Thank you.
    Ms. Jackson-Lee. Mr. Chairman, may I just put this is in 
for the record to indicate that in dealing with the Minutemen 
coming to Houston, I convened local law enforcement called 
constables, and nobody has ever heard of them, but they had not 
received any terrorism training, which I gleaned from just 
having that meeting. So your points are very well taken.
    I would conclude by saying I hope that we will have the 
opportunity of hearing from you distinguished gentlemen, but 
Sheriff Tommy Farrell, which I had hoped that we would have 
been able to hear from from Mississippi, who has that rural 
base of understanding of the lack of resources that he has no 
been able to receive during his tenure. I hope we will have 
that opportunity.
    I thank you for your answers and your service.
    Mr. Simmons. [Presiding.] The chair now recognizes the 
gentleman from California, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Edwards, I would like to know more about the program 
that you have with various tribes and the Tribal Border 
Security Pilot Program. Is it stood up completely now? What are 
the objectives there? What do you do with respect to, if 
anything, those that are on the border? What do you do with 
respect to immigration? How do you share intelligence with 
immigration? Has it changed since we now have the terrorist 
threat aspect involved in all of this?
    Mr. Edwards. There are currently 40 tribes that are on or 
near the United States borders. They are usually not included 
in a lot of the homeland security planning, at least prior to 
the Department of Homeland Security including tribes in the 
NIMS and the NRP.
    I think at that point, DHS realized that in order to have a 
good border strategy and protect our country from our borders 
which should be our first line of hard defense for our country, 
that we had to find out exactly what existed in capabilities 
with regard to tribes and what were their needs to achieve 
parity the tribal communities' emergency services and law 
enforcement and that of the nontribal areas.
    We, to do this particular thing, developed a capabilities 
baseline based upon the national preparedness goals critical 
task list and universal task list to develop some kind of level 
that we could look and gauge and see and monitor where the 
needs may be and what capabilities we had to work with our 
neighbors.
    We are almost completed with that. We have 38 of the 40 
tribes participating, and the information that we got will be 
put into searchable databases that will be able to give us 
trends in different areas, and would also be a tool that we can 
use to show where improvements exist and accountability. And 
then if we have a problem, we can also pull from that 100-mile 
radius to the area of the critical incident, because every 
critical incident is local and you need to first pull in those 
resources. But the report is due to be completed by December of 
this year and we are well on our way.
    Mr. Lungren. What is the geographic reach of those 40 
tribes? That is, how much territory are we talking about? I am 
talking about border territory.
    Mr. Edwards. There are over 225 land miles of border that 
are on tribal reservations, and there are also numerous 
waterways between the United States and Canada.
    Mr. Lungren. Okay. This is a question for the entire panel. 
My perspective is based on the fact that I was here in Congress 
for 10 years, 1979 to 1989, left and went back to California. I 
was Attorney General there for 8 years.
    While I was here in the Congress, I served on the oversight 
committees for the FBI and had very good relations with them. I 
thought everything worked well. Then when I was elected 
Attorney General, I found out that I was local or state and 
they were feds. And frankly, I ran into that problem.
    I hear all this stuff about how we have improved the 
intelligence gathering, but it seems to me in many cases I 
discovered as the Attorney General, that the intelligence 
gathering was one way. We gathered it. They took it. We did not 
get much in return.
    Mr. Cohen, you said things have improved. How much have 
they improved? Has the culture changed?
    Mr. Cohen. You know, I used to think when I was a police 
officer that it was a bureaucratic or a turf issue, why 
information was not shared. I have now come by the FBI with 
state and local authorities. And the FBI is a great 
organization. They do a very important job.
    Mr. Lungren. That is on the record. I do not want anybody 
to say we are attacking the FBI. I am trying to get to the 
problem, which is a continuing problem that I hear about from 
people in my state. I would like to know from your experience 
how much has it improved.
    Mr. Cohen. It has improved, but it has only improved from 
the perspective that they share information and intelligence 
more effectively with those state and local law enforcement 
entities that are involved in the investigations that they are 
conducting. That makes sense, because from their perspective 
their mission is to conduct investigations into individuals and 
groups. From the JTTF perspective, they are conducting 
investigations into individuals and groups that may be involved 
in terrorism.
    They do not focus on, from an operational perspective, 
emergency response planning, critical infrastructure 
protection, or risk mitigation, the activities that I have to 
focus on. So from their perspective and in their world, they 
are doing a better job sharing information.
    Mr. Lungren. How about your world, your perspective?
    Mr. Cohen. In my world, I get more of a response, and we 
have a great relationship with our local FBI, but the 
intelligence that I need most often comes through DHS because 
DHS has a multi-disciplined mission. They have a law 
enforcement response, risk mitigation, consequence management 
mission. They tend to provide me the intelligence in the format 
that allows me to carry out my multi-disciplinary mission.
    Mr. Lungren. Well, if they are gathering information and 
they get it from the FBI and they are sorting it and then they 
are getting it to you, that might be enough. Is it enough for 
you?
    Mr. Cohen. Eighty percent of the time. There are times that 
it is not enough and I have to go through my own sort of 
interpersonal processes that I put in place.
    Mr. Lungren. You see, that is what I am talking about. I 
found it was very serendipitous. That is, if we had a good 
personal relationship with a particular staff, it worked out. 
If we did not, it didn't. There was not a cultural imperative 
that the FBI was going to work closely with local and state law 
enforcement. I understand if they are investigating, local and 
state law enforcement, because of a question of public 
corruption. That is one thing, but I am talking about overall 
attitude.
    I am just trying to figure out from your standpoint, where 
are we?
    Mr. Cohen. I think we are getting better. We are not where 
we need to be. I think the culture is beginning to change. It 
has not changed yet. I think that even if the culture changes 
within the FBI in totality, they still do not operationally see 
themselves as part of the risk mitigation, consequence 
management process and they are going to be reluctant to share 
with entities outside of the investigative cycle.
    Mr. Lungren. Mr. Edwards, with respect to the entities that 
you represent?
    Mr. Edwards. Well, I think that the FBI has made great 
inroads in developing relationships and sharing information 
with local and tribal entities. They have developed at the 
associate-director level an Office of State and Local and 
Tribal Operations. They reach out regularly to us. I was just 
at a briefing with them on intelligence and information sharing 
last Friday, and they are really focusing on what they can do. 
They have a ways to go. They know it, but they are taking those 
steps.
    Mr. Lungren. Mr. Colwell, I know you are here for Pegasus 
and for particular systems, but you have tremendous prior 
experience with the FBI. Your comments?
    Mr. Colwell. I think it is a complex issue. I think it is 
important to note that the FBI has been mandated to change its 
mission and it is doing so, has done so. Any student of 
organizational change and development will tell you it takes at 
least 27 months for an organization that size to effectively 
start moving into its new mission and role. I think they are 
well on their way in that area.
    They have been and are prohibited still with a lot of laws 
that prohibit disclosure to non-law enforcement personnel. I 
think they rely, in my observation they rely then on 
disseminating that information to a law enforcement official, 
and it is up to them to translate that to those that need to 
know in the community. Now, whether that is the best way to do 
it, I do not know, but that is one of the ways they exercise 
it.
    Mr. Simmons. The chair thanks the gentleman.
    Unfortunately, we are in a time constraint. We lose the 
room at 1 o'clock promptly, with votes perhaps at 12:30.
    I think the line of questioning from the gentleman from 
California was excellent. When you talk about state and local 
in California, California is a state that is the size of a 
country, and so these are huge issues.
    I would like at this point to recognize the distinguished 
ranking member of the Intelligence Subcommittee, and then move 
quickly to the next panel. The chair recognizes the ranking 
member.
    Ms. Lofgren. Thank you, Mr. Chairman. I am just going to 
ask one question, and hopefully then hear from the second 
panel.
    The question I have really relates not how we can do better 
by sharing information, because I think that has been explored 
quite thoroughly and importantly, but really what protections 
we are putting in place, the other side of the coin.
    Mr. Cohen, recently there was an editorial in the Boston 
Globe about the commonwealth fusion center. I am not saying 
they are correct, but they criticized the center by saying 
there was not accountability.
    It reminded me of an issue that is currently being 
discussed in California, and I do not know the truth of it. The 
allegation is that the National Guard engaged in surveillance 
of a group called the Raging Grannies, where I think the 
average age is 75 years old, and a demonstration that was held 
on Mother's Day of the mothers of soldiers who have died in 
Iraq.
    We need to look at that and find out whether or not that is 
true. I cannot say it is true, but that is not something we 
want to have happen, for two reasons. One, it violates 
constitutional rights of people to express their viewpoints; 
and two, it is a waste of time and money because the Raging 
Grannies and the mothers of the dead soldiers are not a threat 
to us.
    What efforts, what steps should we put in place to make 
sure that we prevent that kind of, if that were the case, I do 
not want you to say that it is because we do not know that, but 
that sort of thing, to protect against that kind of misstep, if 
you will?
    Mr. Cohen. Thank you. That is a great question, 
Congresswoman.
    First of all, one of the things that we have made a key 
part of our statewide homeland security strategy is that we 
sort of dispel the notion that security only comes at the 
violation of privacy rights and civil liberties. That is a 
false choice and it is wrong. You can be aggressive in fighting 
crime. You can be aggressive in fighting terrorism and still 
respect privacy and key civil liberties that are the foundation 
of this country.
    We are putting in place an advisory committee that is going 
to include the civil liberties community and privacy experts to 
help us think through issues regarding not only our fusion 
center, but also issues regarding homeland security in general. 
But I think at the end of the day, the most important 
protection we have is allowing open and broad oversight.
    My one concern from a personal perspective is as we have 
gone down the road of expanding accessibility to information, 
as we have gone down the road of trying to think through how 
state and locals fit into this mix, we have, one, tried to 
bring them under the umbrella of the intelligence community, 
which according to our working group everyone believed would be 
a huge mistake; and secondly, we sort of push back oversight, 
whether it be legislative oversight, media oversight, or 
independent oversight bodies within the executive branch.
    So I think it is important that we are aggressive. I think 
it is important that we work to protect our communities, again 
whether it is from crime or terrorism, but we also have to put 
in place aggressive oversight mechanisms to protect and make 
sure privacy and civil liberties are protected.
    Ms. Lofgren. Do the other two witnesses have comments on 
this?
    Mr. Edwards. Well, my beautiful mother is 75 years old, and 
she is still threatens to go up the side of my head whenever I 
get out of line.
    [Laughter.]
    Ms. Lofgren. But she is not a threat to the nation.
    Mr. Edwards. Yes. Let's hope not. As a federal officer, I 
may be alone. At least I was. And she is always right, no 
doubt.
    But, you know, I think that we have to have the federal 
government in the form of Congress and the courts, Supreme 
Court on down, to define for the local law enforcement and 
gatherers of the information, what information is to be 
gathered. Once we do that, then they will know exactly what 
their limits are and they will go after that.
    Mr. Colwell. There is a lot of precedent for that. All one 
has to do is look at history in the 1960s and 1970s and it can 
prove to be quite instructive on the concerns that you 
expressed. Title 28, Part 23, I think, attempts to address this 
and what the law enforcement agencies can do and should do, 
especially when federal funds are involved.
    So I think it is always an area that must be of concern, 
and law enforcement needs to be sensitive to.
    Ms. Lofgren. Thank you very much.
    I yield back.
    Mr. Simmons. Thank you.
    I think a quick review of the green books of the Church 
Committee or the brown books of the Pike Committee will show 
that when the United States goes down that path, nobody 
benefits and nobody wins. The purpose of intelligence 
collection and analysis is to defend Americans and their 
freedom and their liberties, not to in any encroach on those. 
So I think it is a good question, and I think the answers from 
the witnesses have been excellent.
    I want to thank this panel for appearing before us today.
    I would like now to invite the next panel to come to the 
table.
    It is my pleasure to welcome General Matthew Broderick, 
director of the Homeland Security Operations Center. He will be 
representing the Department of Homeland Security. He served for 
over 30 years as an infantry officer in the U.S. Marine Corps; 
commanded platoon, company, battalion and brigade level; 
attended the Marine Corps Amphibious Warfare School, the Armed 
Forces Staff College, the Naval War College and has a 
distinguished military career.
    He is joined by Mr. Josh Filler, director of the Office of 
State and Local Government Coordination for the Department of 
Homeland Security.
    I would express to both gentlemen that you have had an 
opportunity to hear from panel one. You have heard the 
questions of the members of the subcommittee, as well as the 
distinguished ranking member of the full committee. We would 
encourage you, given the fact that we may be called for votes 
at 12:30 or 12:45, and we lose the room at 1 o'clock, we would 
encourage you to summarize your testimony and then give the 
members maximum opportunity to ask questions.
    That being said, we will start with General Broderick.
    Ms. Lofgren. Excuse me.
    Mr. Simmons. Yes
    Ms. Lofgren. I just would like to make a comment. Mr. 
Filler's testimony was not received until 7:30 this morning, 
and the rules of the committee and the House require that the 
testimony be submitted at least 24 hours in advance or 48 
hours, I don't recall which, but certainly before 7:30 of the 
day. I recall hearing in the last Congress where the chairman 
of the Judiciary Committee actually adjourned the hearing 
because Mr. Ziegler had late testimony. I am not suggesting 
that we do that today, but I do think that it is worth noting 
and we expect better than this. I hate to be critical, but I 
must be. The committee deserves an opportunity to review the 
testimony.
    I thank the chairman.
    Mr. Simmons. I thank the gentlelady for her comments.
    We could pursue that further, but perhaps we will wait for 
General Broderick and Mr. Filler to make their comments, and 
then if they wish to respond on that issue, we would be happy 
to hear what they have to say.
    General Broderick, welcome, and we look forward to your 
testimony.

  STATEMENT OF BRIGADIER GENERAL MATTHEW BRODERICK, DIRECTOR, 
  HOMELAND SECURITY OPERATIONS CENTER, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Broderick. Good morning, Chairman Simmons, Ranking 
Member Lofgren and distinguished members of the committee.
    It is my privilege to come before you today to discuss the 
primary ways the Department of Homeland Security shares 
information through its operations center and through its 
Homeland Security Information Network. Because I was asked to 
expedite this, I will summarize it in a few minutes.
    The Homeland Security Operations Center is a 24-7 
operation. It is probably one of the largest ones in the 
country. A large operations center, even by military standards, 
would be 35 or 40 people on a shift. We have up to 84 people on 
one shift representing federal, state, local and even county-
level representation.
    It facilitates security information sharing and operational 
coordination with federal, state, local, tribal, territorial 
and private sector organizations. The private sector is a new 
entry that we are proud to say that we have been able to pull 
in with us. It comprises over 35 federal, state and local 
government agencies.
    It has three primary missions, two of which are core. One 
is to try and detect and report suspicious activity throughout 
the United States. The other core mission is to coordinate 
incident management during catastrophic events within the 
United States. The sub-mission within that is to provide 
domestic situational awareness throughout the United States and 
a common operational picture that everyone can participate in 
at any level.
    Currently, as you know, DHS leads in controlling the U.S. 
borders and ports of entry. Because of that, we have new 
insight into who is coming into the borders, who is coming at 
the borders, and who is inside the borders, with ICE, CVP, 
Coast Guard and TSA all combined now under one organization. 
That provides us with great insight into who may be within the 
borders that is a threat to the United States, or who or what 
is coming at the borders. It allows us to collect that data 
each day from situational reports from these components and 
then share that information with the entire intelligence 
community and as appropriate with other federal, state and 
local organizations and private organizations.
    What people do not realize is that that is a 24-7 job for 
us, looking for suspicious activity, collecting it, and then 
passing it on and making sure it is shared appropriately with 
all agencies and all entities.
    The second core mission, as stated in the National Response 
Plan, is to share information and coordinate actions during 
catastrophic events. It is the primary conduit for the White 
House and the Secretary of Homeland Security to provide 
domestic situational awareness when we do have a catastrophic 
event.
    It also provides a common operational picture in 
situational awareness for the Interagency Incident Management 
Group that meets during a catastrophic event. The IIMG are 
senior-level executives from all the government agencies that 
form in the Homeland Security Operations Center and provide 
courses of action and recommendations on how to mitigate a 
major national disaster.
    The Homeland Security Operations Center also monitors all 
the major events in the United States. There are five different 
types. The national special security events, or the NSSEs, are 
the major events usually sponsored by the federal government, 
inaugurations, conventions. We provide people to those cities 
as part of a staff with a principal federal official and the 
connectivity back to the Homeland Security Operations Center so 
that we will have good connectivity and good situational 
awareness throughout an event.
    The other four categories of events go from size from New 
York City at the New Year's Eve event, which is a category one, 
down to a category two which may be the Super Bowl; category 
three may be the Kentucky Derby; and a category four may be 
less. What we do, though, under three and four is that we go 
into this local or state and offer our assistance. We go to 
local sheriffs, if they are the ones responsible for the 
security around that event, offer them assistance and 
assessments of critical infrastructure. They may not be aware 
that they have great security around that forum, but that there 
is a chemical factory up-wind a half-mile away. We also agree 
to provide them any pertinent information on intelligence that 
may have an effect on that event.
    The third part of homeland security is the Homeland 
Security Information Network. We have broken that down into 
communities of interest. One of the communities of interest is 
law enforcement, and that law enforcement subdivides into two 
communities of interest. There are the major law enforcement 
intelligence agencies, the big ones. There are about 124 of 
them, and we put that in a community of interest called law 
enforcement analysis.
    We also have another portal for law enforcement, and that 
is just law enforcement sharing. All law enforcement agencies 
go in there and they share information within that portal. We 
have a portal for emergency responders. Those are basically 
hooked to all the emergency operations centers throughout the 
country. We have HSIN Intelligence. That is now linking intra-
DHS, our own internal intelligence agencies. We have HSIN 
International, which links us with Great Britain, Canada and 
Australia. We have HSIN Secret, and that is a new program being 
rolled out on existing networks to all the states, territories 
and 18 major police departments in the United States. It will 
be online this fall. We have HSIN Critical Infrastructure.
    We have 40,000 members from private industry on that 
network. These are vice presidents of security, Texas Gas and 
Oil; vice president for security, Texas Instruments; Northrop 
Grumman; Boeing, a very large audience. We asked for 16,000 in 
our pilot and 40,000 signed up. We are in 17 major states right 
now.
    Mr. Simmons. If you could summarize, General.
    Mr. Broderick. Yes, sir.
    Homeland Security Information Network is the network the 
country needed to link all agencies together, fire, emergency 
responders, leadership and police.
    Sir, it has been a privilege to pass this information to 
you. I conclude with my prepared remarks and I will be happy to 
answer any questions you may have.
    [The statement of Brigadier General Broderick follows:]

               Prepared Statement of Matthew E. Broderick

Introduction
    Good morning, Chairman Simmons, Representative Lofgren, and 
distinguished members of the Committee. It is my privilege to come 
before you today to discuss the primary ways the Department of Homeland 
Security (DHS) shares information through its Operations Center and the 
Homeland Security Information Network.

Homeland Security Operations Center (HSOC)
    The Homeland Security Operations Center (HSOC) is a standing 24/7, 
interagency organization that is the national-level hub for domestic 
situational awareness and operational coordination pertaining to the 
prevention of terrorist attacks and domestic incident management. The 
HSOC facilitates homeland security information sharing and operational 
coordination with other Federal, State, local, tribal, and private 
sector organizations. It comprises over 35 Federal, State, and local 
government agencies.
    The HSOC has three primary missions:
        --Daily receipt and reporting of information from all available 
        sources on suspicious activity, throughout the United States
        --Incident management during catastrophic events within the 
        United States
        --Domestic situational awareness and development of common 
        operating picture
    Currently, DHS has the lead for controlling U.S. borders and ports 
of entry. The HSOC's day-to-day responsibilities include identification 
of possible terrorist threats to the Nation by collecting and reporting 
suspicious activities on who or what is approaching, attempting to 
cross, or residing within our borders. Collection and reporting of that 
information is shared with the entire Intelligence Community (IC), with 
a primary focus of providing information to the FBI, the National 
Counter Terrorism Center (NCTC), and the Office of Information Analysis 
(IA) within the DHS Information Analysis and Infrastructure Protection 
(IAIP) Directorate. Those entities, rather than the HSOC, perform the 
intelligence analysis function. The information also is shared with 
other appropriate Federal, State, and local agencies, as well as with 
the private sector, primarily via the Homeland Security Information 
Network, which I will address momentarily.
    The most critical element of the daily information gathering and 
refinement cycle is sharing the information gathered with IA, which 
then passes on possible threats to the Office of Infrastructure 
Protection. The HSOC follows a structured timeline throughout the 
course of the day. Beginning at midnight, DHS organizational components 
submit daily situational reports that are collected and vetted by the 
HSOC prior to being passed on for analysis. This provides a cursory 
first screening of information to avoid an inefficient use of IC 
analytical resources. This information also serves as material for the 
Secretary's morning brief and for the interagency Secure Video 
Teleconferencing (SVTC) that takes place twice daily. A product called 
the Homeland Security Operations Morning Brief, comprised of mostly 
suspicious activity reports minus any information on U.S. persons 
contained within criminal intelligence protected by privacy laws, is 
shared on a Sensitive but Unclassified (SBU) level with about 1500 
Federal, State, and local intelligence and law enforcement agencies and 
subscribers. In the morning and afternoon, a SVTC occurs with NCTC as 
chair and other members of the intelligence community. Information 
obtained the day before is discussed and shared as are requests for 
specific actions. DHS has been able to provide new insight and 
visibility into this process with its reports on who is entering, or 
trying to enter our borders; information, which in past years, would 
have been stove piped within individual agency data bases. Midmorning, 
all agencies within the HSOC meet and an intelligence brief is shared 
with all representatives and they are encouraged to share this 
information with their respective agencies. At the end of each day, 
HSOC-generated items are closed out or passed forward, if appropriate, 
and the cycle begins again.
    As stated in the National Response Plan (NRP), another core mission 
of the HSOC is to serve as the national-level hub for information 
sharing during catastrophic events within the United States. It is also 
the primary conduit to the White House and the Secretary of Homeland 
Security for domestic situational awareness. Sharing of information and 
operational coordination is conducted through Emergency Operations 
Centers (EOC) at Federal, State, local, tribal, and regional levels, 
with the State Governors and their Homeland Security Advisors, as well 
as in relevant format with the private sector. During these incidents, 
situational awareness is also passed to the Inter-agency Incident 
Management Group (IIMG).
    The IIMG, comprised of subject matter experts at the Assistant 
Secretary and Senior Government Executive level from most Federal 
agencies, is established within the HSOC. The IIMG provides strategic 
level recommendations and courses of action, prior to and/or during a 
catastrophic event, for consideration by the Secretary and other senior 
officials. In order to allow these representatives the time to focus on 
courses of action and recommendations, the IIMG members have reciprocal 
desk officers within the HSOC to provide them with continuous 
situational awareness and for requests for information.
    The HSOC is also responsible for monitoring special events. These 
events come in five levels dependent upon the situation participants 
and estimated crowd number. The five levels and examples are:
        National Special Security Events (NSSEs): Inaugurations, etc
        Level 1: New Years Eve in New York City
        Level 2: World Series
        Level 3: Kentucky Derby
        Level 4: Local Events
    In each case, the HSOC offers senior watch officers to support 
major events in other cities or helps local officials ``plug in'' to 
national level intelligence and information sharing as it pertains to 
their particular event.

The Homeland Security Information Network (HSIN)
    The Homeland Security Information Network (HSIN) is the primary 
conduit through which DHS shares information on domestic terrorist 
threats, suspicious activity reports, and incident management between 
and among all DHS stakeholders. It is set of tools and data sources 
that support DHS customers defined as users within multiple communities 
of interest (COI). It also provides collaboration and information 
sharing while enabling the stakeholder organization to determine the 
information and communications streams of value to its needs. The HSIN 
is a capability that provides secure and protected, real-time 
interactive connectivity among users at all levels of government, 
critical sectors and private industry with the HSOC.
    The HSIN directly supports the Department's strategic goals to 
identify and understand threats, assess vulnerabilities; determine 
potential impacts and disseminate timely information to our homeland 
security partners and the American public; and detect, deter, and 
mitigate threats to our homeland. Specifically, it is designed to allow 
users to gather and fuse all terrorism-related intelligence; analyze 
and coordinate access to information related to potential terrorists 
and other threats; develop timely, actionable, and valuable information 
based on intelligence analysis and vulnerability assessments; ensure 
quick and accurate dissemination of relevant intelligence information 
to homeland security partners, including the public; and provide 
operational end users with the technology and capabilities to detect 
and prevent terrorist attacks, means of terrorism, and other illegal 
activities.
    HSIN is a user-friendly system. It enables Federal, State, 
territorial, local, international, tribal and private sector users to 
communicate and share information both with each other and with DHS in 
a real-time, secure and protected Web-based environment. This system 
provides participants direct access to an extensive suite of functions: 
mapping, a robust search engine/library, instant messaging and chat 
(collaboration) and an information-posting capability which interfaces 
with both DOJ's Law Enforcement Online (LEO) and the Regional 
Information Sharing System (RISS) networks. We currently have tens of 
thousands of users and we project to have hundreds of thousands of 
users by FY07.

Currently, the HSIN Communities of Interests include:
        <bullet>HSIN Counter Terrorism (HSIN-CT): the common portal for 
        all Federal, State, territorial, tribal, and local government 
        agencies to share information relating to counter-terrorism and 
        incident management
        <bullet>Law Enforcement (JRIES LE-A): for law enforcement 
        agencies that have major intelligence analysis departments 
        (150 or more members)
        <bullet>Law Enforcement (LE): for all agencies dealing with LE 
        Sensitive data (F/S/L) that meet the DOJ definition of Law 
        Enforcement Sensitive
        <bullet>Emergency Management (EM): for Federal, State, tribal, 
        and local levels (local refers to county/major city) emergency 
        operations centers to deal with major incidents
        <bullet>HSIN Intelligence: being set up for use by the internal 
        DHS intelligence community
        <bullet>HSIN International: allows for rapid dialog between the 
        HSOC and Canada, the United Kingdom, and Australia during a 
        crisis
        <bullet>HSIN SECRET: an immediate, inexpensive, and temporary 
        approach to reach State and local homeland security and law 
        enforcement sites that can receive Secret level information, 
        pending full deployment in fiscal year 2007 of a new DHS Secret 
        backbone called HSDN
Critical Infrastructure Warning Information Network (CWIN)
    The Critical infrastructure Warning Information Network (CWIN) is a 
Federal government-operated network within HSIN that provides mission-
critical, yet survivable, connectivity. CWIN Communities of Interest, 
include:
        <bullet>Entities in the private sector vital to restoring the 
        nation's critical infrastructures(e.g., electrical, information 
        technology, and telecommunications)
        <bullet>Entities in the Federal and State government, vital to 
        maintain government-wide connectivity with DHS; sector-specific 
        agencies and resources; State Homeland Security Advisors; and 
        Emergency Management Centers.
    Most importantly, CWIN provides survivable DHS capability for 
information sharing and collaboration for critical infrastructure 
restoration when primary forms of communication such as the Internet 
and Public Switched Telephone Network (PSTN) are inoperable because it 
is not dependent on the public internet or PSTN. CWIN is used routinely 
for testing and exercises as well as information sharing to ensure 
operational readiness when the need arises.

HSIN Critical Infrastructure (HSIN-CI)
    The HSIN-CI program was designed, implemented, and deployed as a 
DHS-directed and regionally coordinated private and public self-
governing program, with a vetted audience (approximately 40,000 
members, 90% private sector) for national, regional, and local 
information sharing and all hazards, 24/7 alerts and warnings. The 
technology to support the program field operations was installed in the 
secured facilities of the FEMA Regional District Offices in FEMA 
regions IV, V, VI, and X. Participation includes private and public 
members from the 19 states within these regions and, because the 
program uses the Internet, HSIN-CI has membership from all 50 states.
    The HSIN-CI program is administered through Regional Managers from 
the FBI's Field Intelligence Groups, at the direction of the HSOC. CI 
members nationwide promote the HSIN-CI program within their areas of 
expertise, creating a self-administered and vetted private and public 
membership built upon existing relationships and communication lines 
that is locally administered and governed in coordination with DHS 
(HSOC). Public notification options in HSIN-CI include two-way voice 
and short message service (SMS) messaging based on current location 
and/or proximity to an event, and a publicly available collection of 
suspicious activity reports. HSIN-CI members can submit reports, as 
well as receive sector/location-specific information from submitted 
reports.

HSIN Critical Sector (HSIN-CS)
    HSIN-CI is designed to enhance the protection, preparedness, and 
crisis communication and coordination capabilities of the nation's 17 
critical infrastructure and key resource sector owners and operators, 
HSIN-CS is primarily a mechanism for information sharing and 
collaboration within each specific critical infrastructure sector and 
the Federal government.
    The following is the list of Critical Infrastructures and Key 
Resources, as defined by HSPD-7: Agriculture and Food, Public Health/
Health Care, Drinking Water and Waste Water Treatment Systems, Energy, 
Banking and Finance, National Monuments and Icons, Defense Industrial 
Base, Information Technology, Telecommunications, Chemical, 
Transportation Systems, Emergency Services, Postal and Shipping, 
Government Facilities, Dams, Commercial Facilities, Nuclear Reactors, 
Materials, and Waste

HSIN/US Computer Emergency Response Team (HSIN/US-CERT)
    This is the focal point for addressing cyber security incidents 
within the federal government. The portal is an information 
dissemination mechanism to communicate relevant cyber information. 
Using a suite of tools such as secure messaging, forms, secure chat 
rooms, alerts, and shared libraries, US-CERT pushes necessary 
information to a broad or targeted audience, as required.

HSIN Current Status
    The HSIN is operational in 50 States, the District of Columbia, 
five U.S. Territories, 53 major urban areas, Emergency Management 
Agencies, Homeland Security Advisors` Offices, Governors' Offices, 
State Law Enforcement Agencies, National Guard Centers, mayors of major 
cities, Emergency Operations Centers, and city law enforcement 
agencies. It is operational in three foreign countries: the United 
Kingdom, Canada, and Australia. HSIN SBU is currently being expanded at 
the state and local level through a pilot program involving 7-8 States 
in order to determine how the system can best be utilized within 
different governance structures. HSIN SECRET is being deployed and 
tested at 50 state EOCs and 18 additional State and local LE 
activities. There are pilot programs in 11 Information Sharing and 
Analysis Centers (Electric, Water, Food and Agriculture, Public 
Transit, Oil and Gas, Nuclear, Dams, Chemical, Postal, Nonprofit, and 
Health/Public Health). Plans are in place to begin deployment of a 
SECRET level component of HSIN to State and Local sites, and HSIN is 
being rolled out to all DHS component agencies.
    HSIN has become a cornerstone of the Department's ability to 
communicate with homeland security partners and stakeholders across the 
nation. We will continue to build on our success as we extend 
connectivity to a wider user population and improve the tools 
availability for communication, collaboration and analysis of 
information.
    This concludes my prepared remarks. I would be happy to answer any 
questions you may have at this time.
[GRAPHIC] [TIFF OMITTED] 27686.002

[GRAPHIC] [TIFF OMITTED] 27686.003


    Mr. Simmons. Thank you very much. We will put the full 
statement in the record. For the record, I enjoyed my visit out 
to the HSOC. You run a tight ship, and thank you for your 
service.
    Mr. Filler?

 STATEMENT OF JOSHUA D. FILLER, DIRECTOR, OFFICE OF STATE AND 
 LOCAL GOVERNMENT COORDINATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Filler. Thank you, Mr. Chairman and Ranking Member 
Lofgren, and members of the subcommittee.
    First, I do want to apologize for the late presentation of 
the testimony. All I can say is that it will not happen again 
in the future.
    I am Joshua Filler. I serve as the director of the Office 
of State and Local Government Coordination at DHS. I want to 
thank you for the opportunity to appear before you today to 
discuss the department's intelligence and information sharing 
programs with state, local, territorial and tribal governments 
around the country.
    As the committee is well aware, the exchange of information 
between the department and our partners is crucial to the 
mission of Homeland Security. Our efforts consist of keeping 
our partners informed of and facilitating their participation 
in DHS policy and program development.
    We have a number of methods that we employ in order to 
share information with all of our partners around the country. 
As General Broderick indicated, we have our Homeland Security 
Operations Center. Within the HSOC, we also have a state and 
local watch desk. This is a 24-7 watch that maintains constant 
connectivity to state and local officials, law enforcement, 
EOCs around the country 24-7.
    We also host bi-weekly calls with all of the state homeland 
security advisers. John Cohen is actually one of them. We do 
that every 2 weeks. We have a formal agenda. We discuss issues. 
We exchange information, best practices and basically maintain 
open lines of communication.
    We also host monthly national organization calls, which 
includes all of the law enforcement, first responder, National 
Governors Association, U.S. Conference of Mayors, every month 
similar to the bi-weekly call. We have an agenda. We have 
subject-matter experts that come on and brief issues, and again 
maintain that ability to keep in touch and make sure we are 
communicating on a regular basis.
    We also obviously share information in the context of 
intelligence and incident management. We do this at both the 
classified and the unclassified level. As General Broderick 
noted, much of this information is shared by the HSOC and our 
Office of Information Analysis through the Homeland Security 
Information Network. It is also shared by the state and local 
watch desk and through teleconferences, faxes, and secure 
email.
    To date, DHS has provided over 250 unclassified and 
classified homeland security threat advisories and bulletins, 
including joint DHS-FBI bulletins to our state, territorial, 
tribal and local partners. Of that 250 number, approximately 
225 are at the unclassified level. These bulletins have 
included summaries of terrorist tactics used overseas, such as 
in Madrid, Baghdad, Riyadh and more; potential threats to 
jurisdictions or economic sectors in the homeland; potential 
terrorist indicators; and assessments of the strategic intent 
and capability of al-Qa'ida and other terrorist groups to 
attack the United States.
    Of course, all of the DHS operational components, CBP, ICE, 
Coast Guard, regularly share information at the tactical level 
with all of their partners at the local level.
    DHS has also facilitated a clearance program for state, 
local and tribal officials around the country. While we are 
committed to sharing information at the unclassified level, we 
know there are times that information should be shared at the 
classified level. So currently we have more than 250 state and 
local government officials with either secret or top secret 
level DES clearances. There are an additional 150 state and 
local officials who have non-DHS clearances that have been 
permanently certified with the department so that we can 
regularly share classified information with them as well.
    We have also deployed numerous communication modes, systems 
including video teleconferencing capability to every state in 
the country, two in fact to every state. One is in their EOC; 
the second is at the state's choosing. We are also in the 
process of deploying secret telephones to every state and many 
major urban areas around the country.
    DHS is also deploying a secret-level data network, the 
Homeland Security Information Network that General Broderick 
oversees. We are in the process of putting that out at the 
secret level as well.
    Just to sum up, I think it is important to note that while 
we talk about all the different modes and methods of sharing, 
if I could just very briefly walk you through what happened on 
July 7 when London was attacked. On that morning, when DHS 
learned of the attacks, the Department of Homeland Security 
immediately began reaching out to our federal, state, tribal 
and local partners. This included the secretary personally 
calling key governors and mayors in major states and cities 
that had large mass transit systems, urging them to immediately 
deploy additional security to those systems.
    The department later, through my office, hosted two 
national unclassified conference calls with all 56 states and 
territories, major cities and counties from around the nation. 
Shortly thereafter, the deputy secretary hosted a similar 
national call and announced that the alert level would be 
raised to Code Orange for the mass transit systems only. I then 
personally hosted a call and we told all the first responder 
associations, tribal organizations and other government 
organizations that we were raising the alert level.
    Later that day, the department, jointly with the FBI, 
released a bulletin outlining what had happened in London and 
giving the best intelligence picture we could at that time.
    Mr. Chairman, I know my time has run out. Let me just sum 
up by saying I again appreciate the opportunity to be here and 
am happy to answer any questions you may have.
    [The statement of Mr. Filler follows:]

                  Prepared Statement Joshua D. Filler

    Mr. Chairman, Ranking Member Lofgren, and Members of the Sub-
Committee:I am Joshua D. Filler and I serve as the Director of the 
Office of State & Local Government Coordination (SLGC) at DHS. I want 
to thank you for the opportunity to appear before you today to discuss 
the Department's intelligence and information sharing programs with 
state, local, territorial, and tribal governments, and for your ongoing 
support of the Department of Homeland Security's efforts to keep 
America secure.
    As the Committee is well aware, the exchange of information between 
the Department and our state, tribal and local partners is crucial to 
the mission of homeland security. SLGC, in addition to its other 
authorities and responsibilities, currently serves as a national 
coordinator and clearing house in DHS for information sharing between 
the Department and state, local, territorial, and tribal governments as 
well as the first responder community. We operate under the basic 
premise of providing as much information as possible to those who need 
it. We accomplish this using several different methods of coordination 
and information dissemination. .
    Our efforts consist of keeping our partners informed of and 
facilitating their participation in DHS policy and program development 
actions, such as implementation of the Real ID Act, the Security and 
Prosperity Partnership, the National Response Plan, and the National 
Preparedness Goal. We also issue press releases and other announcements 
covering the full range of homeland security events, including grant 
announcements such as FIRE ACT grants and Law Enforcement Terrorism 
Prevention Grants; the Secretary's public speeches and testimony, 
including his recent testimony before the House and Senate on the 
future of DHS; and fact sheets on major homeland security issues such 
as mass transit and maritime security, critical infrastructure 
protection, identification of fraudulent passport documents, and much 
more. All of this information is provided to ensure that our partners 
are kept constantly up to date on what DHS is doing and that they are 
made a part of the process.

Information Sharing Methods
    DHS employs a number of methods to share this kind of information 
and to keep the information sharing channels open at all times. First 
and primarily, DHS maintains the Homeland Security Operations Center to 
be the ``eyes and ears of the Nation'' for homeland security. The HSOC 
is a 24 hour a day, 7 days a week operational watch. Within the HSOC is 
the State and Local Watch Desk which is the primary communication arm 
for sharing all of the information I just described with our state, 
local, territorial and tribal partners, and for certain intelligence 
and incident management information that I will describe in more detail 
later in my testimony. The State & Local Watch has access to multiple 
points of contact within each state and from around the nation 
including police chiefs, tribal leaders, fire chiefs, homeland security 
advisors, emergency managers, governors, mayors, and county officials.
    Second, the Department, through SLGC, hosts bi-weekly conference 
calls with the state and territorial Homeland Security Advisors and 
other officials to ensure they have a consistent and formal means of 
communicating with the Department on general issues. The calls are 
split into three parts: the Northeast; the South and parts of the Mid-
West; and the Mid-West and Western states. The calls are an open forum 
for the free exchange of information and an opportunity for 
collaboration between DHS and our partners and include a formal agenda, 
read-ahead materials and subject matter experts from across the 
Department and the government as a whole.
    Third, DHS also hosts a monthly conference call with all of the 
state, tribal, local and first responder associations to provide them 
routine updates on what is happening at DHS and the federal government 
as a whole and for the opportunity to exchange ideas and best 
practices. Like the bi-weekly calls these association calls include a 
formal agenda, read ahead materials, etc. Recent calls have included 
information on the Port Security Exercise Training Program (PortStep) 
and updates on the Department's Second Stage Review process.
    Finally, SLGC and other DHS officials from all of our components 
stay in constant contact with our partners through other less formal 
means. We regularly attend conferences and meetings around the country 
to brief our partners on what is happening at the federal level and to 
hear from and learn from our partners directly on what is happening in 
their jurisdictions. We also work with the Office of the Private Sector 
to make sure that there is a constant, mutual exchange of information 
with our private sector partners.
    All of these methods and interactions that I have described help to 
ensure that DHS stays in touch with its key partners in securing the 
homeland.

Intelligence and Incident Management Information
    DHS shares intelligence and incident information at both the 
classified and unclassified level. Working with our partners in the 
federal government, DHS works to ensure that our partners at the state, 
tribal and local level have useful information they can either act upon 
immediately, use for situational awareness, or for strategic planning 
and more. Much of this information is shared by the HSOC and our Office 
of Information Analysis through the Homeland Security Information 
Network (HSIN), the State & Local Watch Desk, or through 
teleconferences or video teleconferences, secure faxes and secure 
email.
    The Information Analysis and Infrastructure Protection element of 
DHS participates in the Intelligence Community Information Sharing 
initiatives through the Community Interoperability and Information 
Sharing Office under the DNI. DNI policy is that all terrorist related 
intelligence is disseminated at the unclassified level through the use 
of ``tearlines.'' The majority of this kind of information can and 
should be shared at the unclassified level. This ensures maximum 
distribution among the first responder and homeland security community 
around the nation. DHS has worked hard with the Intelligence Community 
to ``write to release'' classified information into unclassified 
products as rapidly as possible, while ensuring the protection of 
intelligence and law enforcement sources and methods. This will 
continue to be a priority.
    Since its inception, DHS has provided over 250 unclassified and 
classified homeland security threat advisories and bulletins, including 
joint DHS and FBI bulletins, to our state, tribal and local partners. 
These have included summaries of terrorist tactics used in overseas 
attacks, such as in Madrid, Baghdad, Riyadh and more; potential threats 
to jurisdictions or economic sectors in the homeland; potential 
terrorist indicators and assessments of the strategic intent and 
capability of al-Qa'ida and other terrorist groups to attack the United 
States.
    The operational components of DHS also routinely share information 
with state, local and tribal officials. For example, in close 
coordination with DHS/IAIP, the Coast Guard disseminates intelligence 
information throughout all levels of government and, where appropriate, 
the private sector. They are able to provide actionable tactical 
intelligence to Coast Guard operational commanders and state and local 
partners through Maritime Intelligence Fusion Centers (MIFC). At the 
state and local level, the Coast Guard facilitates information sharing 
between government partners through Area Maritime Security Committees 
(AMSC). The Coast Guard has also created Field Intelligence Support 
Teams (FIST) to collect and report intelligence information and liaison 
with federal, state, local partners. Furthermore, Coast Guard 
Investigative Service (CGIS) conducts investigations that produce 
actionable, human intelligence.
    In addition, CBP Border Patrol Agents routinely work with and share 
information and intelligence with local, state, tribal and federal law 
enforcement agencies. One example is the Integrated Border Enforcement 
Teams (IBETS) along the Northern border. In many IBET locations there 
are local, state, federal and Canadian government representatives with 
whom we share information to increase operational effectiveness.
    The United States Secret Service is also involved in task forces 
with state and local law enforcement partners. One such task force, the 
Electronic Crimes Task Force, is comprised of computer and electronic 
experts that perform forensic analysis and investigations into computer 
and electronic crimes.
    Finally, Immigration and Customs Enforcement (ICE) maintains two 
tactical intelligence facilities that collect and disseminate real-time 
and operational information and intelligence, in both the maritime and 
land border environments. This information is shared with Intelligence 
Community and law enforcement agencies at the state, local and tribal 
level, in a variety of formats, and at multiple classification levels.
    While DHS is committed to sharing information at the unclassified 
level, we know there are times that information should be shared at the 
classified level to ensure maximum specificity. DHS also provides such 
classified information to our partners on a routine basis.
    In order to better share classified information, DHS grants 
federally-sponsored security clearances to appropriate state, local and 
tribal officials with an ongoing need for access. There are currently 
more than 250 state and local government officials with SECRET and TOP 
SECRET-level DHS clearances, and there are an additional 150 state and 
local officials with non-DHS sponsored clearances who have been 
permanently certified (perm-certed) to DHS to allow them to participate 
in the Department's classified briefings and receive classified 
products. Furthermore, the Department has funding for several thousand 
more SECRET-level clearances for state, local, territorial, tribal, and 
private sector homeland security officials who can demonstrate an 
ongoing need for access to classified information.
    The Department has also deployed several classified SECRET 
communications systems. In 2003 and 2004, DHS deployed two secure Video 
Teleconference (VTC) units to each state. One unit has been placed in 
each state Emergency Operations Center (EOC) and a second has been 
placed in each Governor's Office, or an alternate location of the 
State's choosing. DHS now has the capability to host all 50 states at 
once at the classified SECRET level.
    In addition to the VTCs, DHS has deployed secure telephones to each 
state and several local governments. A secure phone has been deployed 
to each state EOC as well as to each state Governor's Office or 
alternate location. DHS also now has a secure conference call 
capability that is capable of hosting 18 secure calls simultaneously at 
the SECRET-level. SLGC is also working with the Office of Security and 
the Office of the Chief Information Officer to deploy several hundred 
excess secure phones at little to no cost to cleared state and local 
government officials with a need for additional phones.
    DHS is also deploying a classified, SECRET-level data network 
called HSIN-SECRET that Director Broderick will discuss in more detail. 
This system is being deployed to every state and to 18 additional state 
and local homeland security and law enforcement sites. HSIN-SECRET will 
be available through a dedicated laptop computer and by those officials 
with a clearance on file with DHS and a HSIN-SECRET user account. Upon 
its completion, HSIN-SECRET will allow the Department to rapidly 
disseminate classified threat data and other information to state and 
local officials.
    While a summary of modes of communication is important, let me 
provide the Sub-Committee with a few important examples of how some of 
these modes work and the type of classified and unclassified 
information that is shared. Recently, DHS hosted a national threat 
update via SECRET VTC with all 50 states, the FBI and the National 
Counter Terrorism Center (NCTC). The briefing consisted of an update on 
a variety of threat streams and lessons learned from tactics used in 
Iraq and other overseas locations. The briefing was followed-up with a 
written classified summary distributed to all 50 states.
    An even more recent example involves the London bombings. On the 
morning of July 7, 2005, upon learning of the attacks, the Department 
immediately began reaching out to our federal, state, tribal and local 
partners. This included the Secretary contacting key Governors and 
Mayors to discuss the London attacks and the need to provide immediate 
additional security in major mass transit systems.
    After further consulting with the Intelligence Community later that 
morning, the Department, through SLGC, hosted two national unclassified 
conference calls with all 56 states and territories and major cities 
and counties from around the country, along with the FBI. On the first 
call, the Secretary outlined what had happened in London and discussed 
the possibility of raising the alert level in the United States. 
Shortly thereafter, the Deputy Secretary hosted a similar national call 
and announced the alert level would be raised to Code Orange nationally 
for the mass transit sector only. I then personally hosted a call with 
all the first responder and state, tribal and local associations to 
announce the raising of the alert level. Later that afternoon, DHS and 
the FBI released a joint unclassified bulletin to our partners 
outlining the intelligence picture we had and the basis for raising the 
alert level for mass transit in the United States along with specific 
protective measures for the mass transit sector. Towards the end of the 
day, another national call hosted by DHS with the Coast Guard and the 
U.S. Department of Transportation was held to announce the raising of 
the maritime security level to MARSEC 2 for passenger ferries carrying 
150 passengers or more.

Tribes
    As mentioned before, the sharing of information does not extend 
only to the states and local governments; tribal governments are also 
an important information sharing partner. To build relationships and 
share information about the Department with tribal officials, DHS 
personnel regularly participate in tribal association meetings, 
conferences, and other events including the National Native American 
Law Enforcement Association annual conference, the National Congress of 
American Indians annual conference and the United South and East 
American Indian annual conference. The Department also worked directly 
with the leadership of the Mohegan and Mashantucket-Pequot Tribes from 
Connecticut in 2005 during the Top Officials (TOPOFF) 3 exercise.
    At this time, the majority of the unclassified threat information 
communicated by DHS to the tribes is distributed via email to 
appropriate officials as well as posted on HSIN. The Department's 
ability to communicate information to the tribes is limited by a lack 
of email connections among tribal leaders; however, we have been 
working to bring tribal nations into HSIN. Several tribal nations in 
California and Arizona are currently using HSIN.

Fusion Centers
    As the Sub-Committee is aware, many states and large urban areas 
have established intelligence fusion centers to better collect, 
analyze, and disseminate homeland security information. Several federal 
agencies, including DHS components and the FBI have representatives 
working in these fusion centers. The Department's Homeland Security 
Advisory Council Intelligence and Information Sharing Working Group and 
the Department of Justice's Global Justice Information Sharing 
Initiative have worked closely to establish baseline standards for 
fusion center to operate under. The Department will continue to work 
with all of our partners, including the DNI, DOJ, and state, local, and 
tribal officials, to further enhance these standards and integrate 
these fusion centers around the nation.

Conclusion
    Information sharing with our state, territorial, tribal, and local 
partners is one of the key priorities of the Department of Homeland 
Security. Since September 11, 2001 we have made tremendous progress in 
this area. However, we still have much more work to do. We at DHS will 
continue to make adjustments, we will continue to enhance our methods, 
and we will continue to work closely with all of our partners to better 
secure the homeland.
    Once again, I thank the Sub-Committee for providing me this 
opportunity today as well as for their continued support and valuable 
input. I look forward to answering any questions you may have.

    Mr. Simmons. I thank you, General Broderick and Mr. Filler.
    A very brief question from me, and then I will defer to the 
distinguished ranking member.
    I talked earlier about cultural changes in the intelligence 
community in our government with regard to intelligence 
information sharing. I also understand that the Department of 
Homeland Security is in the process of a reorganization. If the 
Homeland Security Operations Center, which is currently part of 
the IAIP, is taken out of that entity, how might that affect 
positively or negatively your mission for information sharing? 
That is question one.
    And then to you, Mr. Filler, for all of the host of calls 
and bulletins and other activities that you are engaged in, 
what kind of feedback loops do you have in the system where 
your customers, the people that you are contacting and 
communicating with, have the opportunity to tell you how useful 
that is so you can tailor that program to their needs?
    Mr. Broderick. Sir, in response to your question on the 
HSOC, we do not intend to change the way the HSOC is currently 
set up. We realize that that is really the fusion point between 
ops and intel and that it must remain and actually get more 
robust. But we do not intend to break that synergism. As you 
know, there is a high side with a lot of intelligence, and a 
low side with the consequence management and a lot of law 
enforcement. We intend to keep that fused together.
    The positive part of the reorganization is that it gives 
the HSOC now a direct voice to the secretary and it also allows 
the HSOC to go down faster on the operational side and try to 
work operational coordination at a level that we did not have 
before. Before, there was a buffer. Border and Transportation 
Security oversaw many of our components. So it was another 
layer.
    The layer worked fine except that it was slower in the 
process. Now we can go directly down to these operations 
centers, access that information, get it back up and hopefully 
coordinate with state and locals faster. So the process should 
be fast.
    Mr. Filler. Sir, we actually exercise as number of ways to 
get feedback. Most of the time when we actually put out a 
product to our partners; we actually have a customer 
satisfaction survey attached to the document so they can 
informally tell us whether they found the information useful, 
timely, so on and so forth.
    For those who would prefer a less formal means, one of the 
purposes of my office is to be a conduit to our state, tribal 
and local partners so that they have a place to go to tell us 
what is working, what is not working, and do so in a 
confidential way if they want to, but to make sure that their 
concerns are getting into the senior leadership of the 
department. Sometimes they do that through a confidential 
conference call; other times through the biweekly calls that I 
described they will take the opportunity to pass that 
information there. But there are very, very, very robust 
methods to get that information in.
    Mr. Simmons. Thank you very much
    The chair now recognizes the distinguished ranking member 
of the full committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Last week, this committee heard testimony with respect to 
transit security. One of the things we found out is the 
department did not have a transit plan for security. A lot of 
this came about because of the unfortunate situation in London. 
We have since found out that there are some 100-odd deadlines 
that the department just ordinarily has missed, most of which 
have been requested by Congress.
    General Broderick, I see that Chairman Rogers in House 
Appropriations deducted $5 million from the administration's 
request because the Homeland Security Operations Center did not 
provide the mandated 5-year implementation plan. Where are we 
on that plan at this point?
    Mr. Broderick. Sir, we submitted the 5-year implementation 
plan from my office on time. It has had problems working its 
way up through the system, but at my level, we were able to 
provide that out we thought in a proper time. The 
implementation plan is in effect. We do know where we want to 
go as far as the Homeland Security Information Center, and 
where we want to go with our system, and where we want to go 
with our center and how we want to develop those systems.
    Mr. Thompson. If this plan that you refer to is in effect, 
can you provide members of this committee with a copy of it?
    Mr. Broderick. Yes, sir. I would be glad to.
    Mr. Thompson. And so do I assume that whoever is reviewing 
whatever you submitted, that it is still somewhere in the 
pipeline for review?
    Mr. Broderick. Yes, sir. My concern is trying to gain back 
that $5 million and I have been requesting that it be pushed 
almost on a daily basis.
    Mr. Thompson. Mr. Chairman, I would just like to note for 
the record that in my sitting on various hearings before a 
committee hearing testimony, what the general is saying is not 
unusual. It appears that the people who have the responsibility 
for preparing many of the documents requested by Congress, they 
are actually doing their job. But for some reason along the 
way, the process is more or less stymied, if not stopped.
    I think at some point we will have to perhaps ask the 
secretary if he can unblock the logjam by which we have heard 
testimony that occurs from getting the congressionally mandated 
reports to a committee, because I think it is important for all 
of us to have the information, since some of the information 
obviously is for various plans for different departments. I 
think we, along with the public, should have a right to know.
    I yield back.
    Mr. Simmons. I think the ranking member's point is well 
taken. Certainly, the loss of $5 million is an adverse impact 
for the Department of Homeland Security. Our interest here is 
to strengthen and oversee that department and make it as 
effective as possible. That is, I think, our goal. So I welcome 
the ranking member's comments on that subject.
    The chair now recognizes Mr. King, the gentleman from New 
York.
    Mr. King. Thank you, Mr. Chairman.
    I want to thank General Broderick and Mr. Filler for their 
testimony.
    I would like to focus, Mr. Filler, on your situation, since 
you really are in a unique position of being at both ends of 
this process, having served in New York City and now being at 
the federal level.
    Which deputy mayor did you report to, Rudy Washington or 
Joe Lhota?
    Mr. Filler. Joe Lhota.
    Mr. King. Joe Lhota. Okay.
    Again, thank you for your service to New York. Obviously, 
New York was in the forefront of providing local protection for 
antiterrorism, and I want to thank you for that.
    You sat here during Mr. Cohen's testimony. He made a number 
of points basically saying that the system is not where it 
should be; that occasionally conflicting information is given 
out; sometimes too much classified information is given out. If 
you were back in New York right now and you were dealing with 
some federal bureaucrat called Josh Filler, how would you feel 
you were being treated? How would you feel the information was? 
Would you feel that the system was working properly?
    Mr. Filler. I would say he is working hard, trying to do 
the right thing.
    [Laughter.]
    Mr. King. Spoken like a St. John's man.
    [Laughter.]
    Mr. Filler. I would say, Congressman, that yes, things 
really have gotten better. I notice even in the time from 9/11 
to my departure in New York City that things were getting 
better; that the shock of that event really did drive a lot of 
good things happening. But as John Cohen said, they are not 
where they should be. There are still times where information 
is not shared or if it is shared, it is so compartmentalized 
that people who do need access to it do not have it or their 
underlings have it and senor leadership at the local level or 
state level might not actually have it.
    So I think great progress has been made on two fronts. On 
the cultural side, I do think that we have changed the culture 
in part in law enforcement and intelligence, but it has not 
been changed to the point where it needs to be. I think 
development of systems like HSIN, the creation of DHS, all of 
these things have helped push the ball down the field. But if I 
were at the local level, I would still probably be frustrated 
at times that I am not getting all the information I think I 
need, or there may be times where I am getting conflicting 
information from different federal agencies.
    So again, I think we have made a lot of progress, but we 
still have more work to do.
    Mr. King. Do you feel within your own department that some 
of the agencies you have assumed control over are not 
cooperating fully with each other, have not accepted the 
concept that they are now working for the Department of 
Homeland Security and they still have their own turf they are 
trying to protect?
    Mr. Filler. I would say this, that the integration of DHS 
is an ongoing process, and the second-stage review and the 
secretary's reorganization of DHS is designed precisely to that 
point, to make sure that we are organized in the best possible 
way to achieve our mission. That includes integrating our 
operational capabilities, integrating our intelligence 
capabilities.
    So while, again, I think a lot of integration has gone on 
over the last 2 years, we are obviously not where we should be 
and I think second-stage review bore some of that out and the 
secretary has now made a decision on where he wants to go.
    I think everyone in DHS comes to work in all of the former 
22 legacy agencies with the idea of how can they better secure 
the homeland; how can they better work within their department; 
and how can they better work with their partners at the state, 
tribal and local level. What we need to do is create an 
environment for them where they can do that in the best 
possible way.
    Mr. King. General Broderick, do you have anything to add to 
that?
    Mr. Broderick. I agree, sir. I think that the second-stage 
review showed that there were warts out there, and rightfully 
so. I mean, people build organizations that have a lot of pride 
and when we came in, we asserted ourselves over them as the 
``higher headquarters.'' It is like the federal government over 
state and local. There is always going to be that little bit of 
friction of we are those guys.
    But I think that with the second-stage review and trying to 
build this one team and this faster conduit for coordination 
with the ops and the intel, the recipient on the other end, the 
state and local are going to find that it is a lot smoother 
organization, and we can get information to them quicker.
    Mr. King. I want to thank both of you for your service.
    I think that it is easy for us to find fault. I am not 
trying to do that. I think what the committee wants reassurance 
on, though, is that the process is going forward; that the 
department realizes things are not perfect; they realize that 
local police are not getting the full cooperation, probably 
more so from the FBI than Homeland Security, to be honest with 
you, but at least they still feel that there is a certain 
breakdown in communication.
    I think what we again really want is the assurance that you 
realize that and you are moving forward, and I really commend 
you for what you are doing.
    Mr. Filler, again, thank you for what you did in New York 
City.
    Mr. Simmons. I thank the gentleman from New York.
    I am now going to recognize the gentlewoman from Texas, Ms. 
Jackson-Lee, with the caveat that I will stick to the 5-minute 
rule because we are going to lose this room at about 12:50 p.m.
    The gentlewoman from Texas?
    Ms. Jackson-Lee. I thank the chairman very much. It must be 
attributable to lawyers, and I am not sure if the gentleman is, 
but when we are probing we are probing, but I thank him for his 
kindness.
    Let me also thank you, Brigadier General, for your work and 
certainly let me thank seemingly a good friend of my friend 
from New York, Congressman King, and we thank you for your 
service as well.
    I just want to focus on this question of local translation 
of intelligence, if I might, and really say what I have said in 
earlier remarks that I think this is the key to our security. 
People laugh, but I do think hometown security is homeland 
security. I sit next to a very distinguished member of Congress 
from New York, and I have not heard of one homeland security 
meeting where the Congresswoman has not spoken about the need 
for assistance and resources in the local area.
    But let me share with you what I said earlier about the 
structure in Texas. It is a law enforcement group called 
Constables. I think part of the issue is in working with 
Washington and working with the corporate headquarters, if you 
will, is knowing what is happening outside the beltway. And so, 
I would be interested in finding out first of all what efforts 
have been made, if you will, to understand the structure in our 
local communities.
    I bring up the Constables because there have been some 
efforts to do threat and terrorist training with conspicuous 
entities, police, sheriffs. But when you get down to many areas 
in this country, they have their own names. For example, I am 
sure there are different names on Indian reservations or 
pueblos that do not fall into ``police.'' So I am concerned 
that we are not connecting by getting the information from 
local communities, to find out what their structures are.
    I will be asking the Homeland Security Department to give 
training to Constables and their staff because they were left 
out of the loop when that training came into our region. But I 
would first like to pose that question.
    What better ways are you working to ensure that you know 
the structures and you are reaching those local entities that 
may not be as well known and conspicuous, but work in the areas 
that first responders work?
    I would also ask the question, does the reorganization that 
Secretary Chertoff announced last week have any direct impact 
on better improvement of local-state communication, meaning 
Homeland Security's local-state communications?
    Mr. Filler. Congresswoman, that is a very good question. I 
think it raises a very important point. We need to understand 
our partners. I think we do it in two ways at DHS.
    First, my office in particular, when we hire people, we try 
to hire people who have a background at the state, local or 
tribal level. In fact, we have someone from Texas in my office 
in a very senior position who works with local governments, so 
I am familiar with Constables, and I learned it from him.
    And so I think that is a very important part of what we do, 
not only within my office, but throughout the department, that 
we bring people in who understand how things operate, how they 
are structured at the local level, county level, tribal level, 
state and territorial level. So I think if we do those things, 
that will obviously help the department's internal mechanisms 
better understand its customers.
    Secondly, I think aggressive outreach, and that is another 
part of what my office does, maintaining that constant contact, 
getting to know people, getting to know their structure, their 
leadership, their laws and rules that govern them. Not every 
state is the same. Not every county is the same. Not every city 
is the same.
    I come from New York, which is a strong home rule state. So 
the mayors of those cities have tremendous responsibility and 
independent authority from the state. New Jersey, just across 
the river, is different. The governor there is a very powerful 
executive and the state wields great authority.
    So understanding these distinctions is absolutely critical, 
and I could not agree with you more.
    Ms. Jackson-Lee. Brigadier General, and as you answer that 
question would you just also add the ways in which your 
intelligence analysis is different from the NCTCs, and 
particularly as it may relate to being effective in getting 
intelligence to our local communities. Are you just analyzing 
the same data or are you bringing in a new perspective to the 
analysis?
    Mr. Broderick. To answer that last question first, ma'am, 
NCTC looks at information globally, so we are actually 
providers and then we are takers. The great thing about that is 
they are getting their information from multiple sources, both 
internationally and nationally, and then they are able to push 
it back down. What we try to do is we try to look at it from a 
state and local perspective when we get it.
    What is it that domestic U.S. intelligence requires? What 
do we need out of that?
    So as they push that information back down to us, we are 
able to go back with requests for information that we think are 
more structured for state and local people, and try to get it 
down to actionable intelligence, unclassified, or the lowest 
level of tear-lines that we can get when we push that back 
down.
    So we are hoping that we are being the advocate for the 
state and locals, and we are trying to push that information 
down as quickly as we can in actionable-type informational 
form.
    Mr. Simmons. The chair now recognizes the gentleman from 
Washington.
    If the gentlewoman from Texas wants a third round, we will 
accommodate her.
    Ms. Jackson-Lee. I thank the chairman.
    Mr. Simmons. The gentleman from Washington?
    Mr. Reichert. Thank you, Mr. Chairman.
    I do agree there has been progress in the last couple of 
years, so congratulations on that work. I also appreciate the 
fact that you recognize there is a lot more work to do, as all 
of us recognize that absolutely true fact.
    How important do you think first responders are in 
collecting intelligence information on a day-to-day basis 
during their job on the street, when it comes to homeland 
security?
    Mr. Broderick. I think that is the domestic intelligence 
collection effort. I think that is where the rubber meets the 
road. We clearly recognize that that is where we are going to 
really get the information and quickly and on-hand. We are 
going to get information that might not have gone through 
normal intelligence channels. It may have just been something 
that a very savvy police officer saw in the street and 
questioned, and that may be the key to the puzzle.
    We have noticed in the U.K. on other instances that it is 
just an observant law enforcement or private citizen who 
noticed something a little different, and they reported it, and 
it was able to go up, and they were able to prevent several 
incidents. I really believe that that is where it all starts. 
That is why HSIN now is going out at the local level. We have 
hit the state level. We have hit the major city level now. We 
have gone to the first seven states and offered free to link 
all of their local communities in both fire, emergency 
response, and their emergency operations centers and try to 
link that so that they can share that information with the 
state, with themselves and up to us.
    Mr. Reichert. Are you familiar, either one of you, with the 
LINKS system?
    Mr. Broderick. Is that the one in Washington State?
    Mr. Reichert. Yes, sir.
    Mr. Broderick. Yes, sir. I am sort of, sir.
    Mr. Reichert. Sort of. Well, I guess that is my point. We 
do not have a seamless, really a system in place to share that 
kind of information, so if a first responder is very important 
in collecting that data.
    For example, not too long ago we had a state trooper stop 
someone on the highway, and they were written a citation and 
they were allowed to leave. Two months later, as the ticket 
goes through the process, we recognize that this is a person 
who has committing crime and sending money to Al Qaida. So we 
had to track that person down again.
    If we had real-time information in those police cars, and 
that has been something that I have been working on since 
September 11, as the sheriff in King County, with the Seattle 
Police Department, in connection with LINKS, but it has not 
happened yet.
    I commend you for the cooperative effort and the energy 
that you are putting forth there, and the relationships that 
need to be built, which are absolutely necessary.
    But back to where the rubber meets the road, it is action 
that has to happen. There has been a promise that has been 
proposed to us through the FBI and the U.S. Attorney's office 
in King County and Seattle. Do you see that coming together in 
the near future sometime?
    Mr. Broderick. Yes, sir, I do. As I said, we have not 
started the third phase. We went to the state level. We went to 
the major city level. Now we are starting at the local level. 
But simultaneous with that, we are working with the FBI on all 
their major products that they have out there--LEO, RISS--and 
we are trying to get that all to be interoperable so that all 
that information is shared through one database and we can turn 
it around and get it back out there, or we can recognize that 
is actionable intelligence and get the proper authorities.
    Mr. Reichert. Is the DHS integrated initiative certainly a 
key factor or key component of this effort?
    Mr. Broderick. Yes, sir.
    Mr. Reichert. Anaheim, Seattle?
    Mr. Filler. I am familiar with the Anaheim, Seattle, and 
there are two others.
    Mr. Reichert. Cincinnati.
    Mr. Filler. Cincinnati. And yes, I think we are constantly 
looking at ways to try to make these things interoperable. I 
think the integration effort is really a technology effort. We 
are trying to find some best practices in the technology field 
that we can then use in other parts of the country. I think one 
of those things obviously is our ability to integrate different 
systems. I know Matt's office has worked very hard to try to 
integrate RISS, LEO and HSIN, but there are obviously other 
systems that should be integrated as well.
    Mr. Reichert. Great.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Mr. Simmons. I thank the gentleman from Washington.
    The comment was made that the gentlewoman from New York, 
Ms. Lowey, is a great expert on homeland security. That has 
certainly been my observation. I thank her for her patience, 
and she is now recognized for her questions.
    Mrs. Lowey. Thank you, Mr. Chairman.
    I would like to follow up on your comments, General.
    First of all, let me thank the General and Mr. Filler for 
your presentations.
    If there are seven states chosen for some coordinative 
mechanism between firefighters, police, EMS workers, I 
certainly have not been aware of it. Frankly, since the 
beginning of our contact with Homeland Security, we have been 
asking for a federal initiative on interoperability because we 
continue to get no direction.
    I am a New Yorker. My district is just north of New York 
City, but I consider myself part of a region. I must say, Mr. 
Filler, I have been tremendously impressed with the work of Ray 
Kelly and the New York City department. But if there is an 
interoperability plan with some direction from the Department 
of Homeland Security that is operating in seven states, I would 
love to give you the opportunity to brief me further on it and 
perhaps I will use my time for that.
    Mr. Broderick. Yes, ma'am.
    Mrs. Lowey. Is that what you referred to? Did I hear 
incorrectly?
    Mr. Broderick. No, ma'am. What we have done now is the 
third stage of going out with HSIN is to go to individual 
states, and New York was the first state we went to, and offer 
to link all the emergency operation centers, the police 
departments and the leadership into whatever system they 
wanted. What we did not want to do is be prescriptive. We 
wanted the states to come back and tell us how they would like 
to organize themselves and how they would like that information 
to flow and to link each other.
    We work with Bart Johnson at the New York State Police. He 
has hooked us into their fusion center. New York State already 
has a very intricate system on its own, and they asked us to 
link in at the fusion center and at several larger points, but 
that they felt that the system underneath them was adequate at 
this time, and they are re-evaluating whether they need to take 
HSIN and use that system.
    Mrs. Lowey. I am not sure what that really means. I 
appreciate the opportunity, Mr. Chairman, to pursue this.
    We have been looking for direction from the Department of 
Homeland Security. In fact, I recall probably a year ago there 
was an RFP that went out so that the Department of Homeland 
Security could get some direction down to the localities about 
the interoperability of their systems. I am really shocked to 
know that New York State thinks everything is just fine.
    Now, when you go down to the state, do you hear problems of 
frequency? This is an issue in New York City. It is an issue in 
Westchester County. I have been hearing this for 3 years. Right 
now, no one is talking to each other.
    And so I am still a little confused as to what you are 
offering the state and what they say they have. If you are 
implying that the state thinks that they have an effective 
interoperability system so that they can communicate with 
information sharing, I am puzzled, and maybe I should go to my 
next question. Could you explain?
    Mr. Filler. I think I can try, Congresswoman. I think there 
are two different issues here. I think we are talking about 
interoperability of a data network, HSIN, RISS, LEO, versus 
interoperability of communications, primarily radio 
communications, during an incident which obviously was 
something that the 9/11 Commission and others looked into.
    The issue of interoperability of communications primarily 
through radio communications is really something that the 
SAFECOM Office and our Office of Interoperability and 
Compatibility has been looking into for some time.
    Mrs. Lowey. Have they accomplished anything?
    Mr. Filler. Well, there a number of?
    Mrs. Lowey. We will not deal with that since it is not your 
office.
    So you are focused on the information sharing. I 
misunderstood.
    Mr. Filler. Correct.
    Mrs. Lowey. Okay.
    Mr. Broderick. Yes, ma'am. I think you were talking about 
radio communications, ma'am. I was talking about something 
else.
    Mrs. Lowey. I see. So I will not burden you with that 
question because we are still waiting to get response on the 
other. It will be 4 years I guess in September, but maybe we 
will get it right eventually. I am optimistic.
    Let me get to the question about the information sharing. 
Perhaps you can clarify it. Are there tools inherent to 
homeland security operations center dispatches that allow the 
local enforcement officials to hone in on information that 
might be relevant to them, without having to comb through 
information that is not? How is this done when you are either 
the General or Mr. Filler?
    Mr. Broderick. Ma'am, we are now establishing what we are 
calling a current operational picture. It is based on iMAP 
data. iMAP is geospatial data that lays down all infrastructure 
and what all the cities and even many of the rural areas 
possess for infrastructure. Within that layer, though, we are 
building intelligent suspicious activity layers where law 
enforcement people can come in and just access those layers and 
pull out the information they need. They have the ability to 
come in and look at key infrastructure and query that 
infrastructure and see how that infrastructure is progressing 
in their area, whether it needs protective measures, how it is 
going to influence certain events that are going on in that 
community.
    This is a progress in being right now, but we are working 
with L.A., Washington, D.C., on what local police departments 
would need to go in and pull that out without having to query 
through all of our other data. They can go in and use it at 
their own time.
    Mrs. Lowey. I see my red light is on. Thank you, Mr. 
Chairman.
    Mr. Simmons. I thank you very much. I would be happy to 
extend to the gentlewoman an additional couple of minutes if 
she would like to take them.
    Mrs. Lowey. Thank you for the generosity. Then perhaps I 
will pursue that.
    If you are increasing the availability of actionable 
information to local law enforcement, what I hear is really a 
dearth of funds locally, and they need the funds to be able to 
move forward and to implement. How can you ensure, or how will 
you ensure that locals have the funds sufficient to ensure that 
this information can actually be used?
    Mr. Broderick. Well, I will let Josh answer the rest of 
that. On my side, ma'am, both with HSIN and with COP, the 
current operational picture, it is free to them. So we provide 
all the means necessary for them to do that.
    Mr. Filler. The fact that it is free I think obviously 
helps, but there is a wealth of funding, as you are well aware, 
that has been distributed to first responders, state and local 
governments since 9/11. We have specifically outlined to them 
that much of that funding is eligible for information sharing 
to buy the systems, the equipment, the software so that they 
are able to actually analyze data, share information among 
themselves and with the department.
    Mrs. Lowey. I will not pursue this, but you must know that 
maybe New York City is different, but most of my communities do 
not have a fraction of the money they need for training, for 
equipment purchases. And there really has not been sufficient 
money that is coming down to the local. Even New York City, 
which has been able to benefit from some direct grants does not 
have what they need, as you well know. So I think after 
developing the plan, we need to make sure that the locals have 
what they need to implement it.
    Thank you, Mr. Chairman.
    Mr. Simmons. Thank you very much.
    I want to take this opportunity to thank our witnesses for 
providing their very valuable testimony.
    I remind members that we have additional time to submit 
questions for the record. The record will be held open for 10 
days to submit questions. I believe that the distinguished 
ranking member of the committee requested a report of the 
General, and we would look forward to seeing that report, 
understanding that it has not been cleared through the 
department, but perhaps we can see it in some form in response 
to questions from members of the subcommittee.
    Let me just conclude by saying that information sharing is 
a critical component of our homeland security, now and into the 
future. And yet information sharing, intelligence information 
sharing is something new and different, so there are challenges 
involved. This subcommittee, the members of this subcommittee, 
I believe all want to be participants in making this process 
work.
    I lost constituents on 9/11. I do not live in New York. I 
live in Connecticut, but my daughter lives in New York. On 9/
11, the apartment that she occupied was not reoccupied because 
of that terrible tragic attack. Members of my family continue 
to live in New York City and in other areas that are potential 
target areas.
    So we feel a certain sense of urgency, as I am sure you do 
as well, that we want to be successful; that we do not want 
another attack. And we certainly do not want to think that at 
some future date those who oppose us would be successful 
because we held a piece of information that was not shared.
    So again, thank you for your testimony. Thank you for your 
service to the country.
    Hearing no objections, this hearing is now adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
